<html>
<title> - ELECTION SECURITY: VOTING TECHNOLOGY VULNERABILITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                           ELECTION SECURITY:
                   VOTING TECHNOLOGY VULNERABILITIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INVESTIGATIONS
                             AND OVERSIGHT
                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________

                           Serial No. 116-31

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




       Available via the World Wide Web: http://science.house.gov
       
       
       
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-795 PDF           WASHINGTON : 2020        
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

              Subcommittee on Investigations and Oversight

              HON. MIKIE SHERRILL, New Jersey, Chairwoman
SUZANNE BONAMICI, Oregon             RALPH NORMAN, South Carolina, 
STEVE COHEN, Tennessee                   Ranking Member
DON BEYER, Virginia                  ANDY BIGGS, Arizona
JENNIFER WEXTON, Virginia            MICHAEL WALTZ, Florida
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JAIME HERRERA BEUTLER, Washington
STEVE COHEN, Tennessee
BILL FOSTER, Illinois

                         C  O  N  T  E  N  T  S

                             June 25, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    10

Statement by Representative Ralph Norman, Ranking Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    13
    Written Statement............................................    14

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    15
    Written Statement............................................    16

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    17

Written statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18

                               Witnesses:

Dr. Charles H. Romine, Director, Information Technology 
  Laboratory, National Institute of Standards and Technology
    Oral Statement...............................................    20
    Written Statement............................................    22

Mr. Neal Kelley, Registrar of Voters, Orange County, California
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. Latanya Sweeney, Professor of Government and Technology in 
  Residence, Department of Government, Harvard University, 
  Institute of Quantitative Social Science
    Oral Statement...............................................    77
    Written Statement............................................    79

Mr. Paul Ziriax, Secretary, Oklahoma State Election Board
    Oral Statement...............................................    84
    Written Statement............................................    86

Dr. Josh Benaloh, Senior Cryptographer, Microsoft Research
    Oral Statement...............................................    99
    Written Statement............................................   101

Discussion.......................................................   113

             Appendix I: Answers to Post-Hearing Questions

Dr. Charles H. Romine, Director, Information Technology 
  Laboratory, National Institute of Standards and Technology.....   136

Mr. Neal Kelley, Registrar of Voters, Orange County, California..   138

Dr. Josh Benaloh, Senior Cryptographer, Microsoft Research.......   140

            Appendix II: Additional Material for the Record

Documents submitted Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   146

Document submitted by Rep. Sean Casten, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   176


                           ELECTION SECURITY:

                   VOTING TECHNOLOGY VULNERABILITIES

                              ----------                              


                         TUESDAY, JUNE 25, 2019

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
            joint with the Subcommittee on Research
                                    and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to notice, at 2:58 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Mikie 
Sherrill [Chairwoman of the Subcommittee on Investigations and 
Oversight] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairwoman Sherrill. The hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. Good afternoon, and welcome to a joint hearing of the 
Investigations and Oversight and Research and Technology 
Subcommittees. Ranking Member Norman and I had such a good 
experience working with Research and Tech last month during our 
transportation hearing that we thought we should do it again, 
so it's great to be here with Chairwoman Stevens and Ranking 
Member Baird, so thank you both, I appreciate it.
    We are here today to talk about election security, and the 
various technologies and best practices that support it, and I 
want to start out by acknowledging something good. The experts 
tell us that the United States has, in fact, made enormous 
progress since 2016 toward protecting our election 
infrastructure. I applaud the Secretaries of State, the 
election officials, the poll workers, and the systems 
administrators across the Nation who have already been working 
to defy election interference. New Jersey, for example, is 
investing in a whole range of activities right now to prevent 
interference, including a pilot program for voter-verified 
paper trails.
    But I remain worried about the enormous risks our election 
systems still face heading into 2020, and I have been really 
concerned about how attacks on our election system affect the 
American psyche. We have all seen anecdotes in the press about 
counties and States across the United States, where experts 
learn after the fact that an election system has been hacked. 
It is worth pointing out that we don't always see election 
systems actually being breached when they are targeted. 
Sometimes our systems work the way they're supposed to, and 
keep intruders from doing harm, and we should find comfort when 
we learn of a crisis averted, but for the most part we don't. 
These stories in the news allow us to see just how high the 
stakes are. They allow us to see how many ways there are to 
manipulate the system. These stories make the American people 
feel uncertain, and our peace of mind, our faith in the 
electoral process, is another casualty of interference.
    There are few things more central to the American covenant 
than the safety and security of our elections, where citizens 
from all walks of life can cast their vote and know that it 
will be counted. Our foreign adversaries know this. The last 
two election cycles saw foreign interference in our election 
systems that tried to shake our faith in the U.S. election 
system, and in our fellow Americans. When I was in the Navy, I 
was a Russian policy officer, and I saw firsthand how the 
Russians worked to sow division here. We know the Russian 
intelligence service has already attacked our election 
infrastructure across a number of States, and we have every 
reason to believe these attacks will escalate during the 2020 
cycle. The methods that foreign and domestic actors use to 
corrupt our elections are growing more sophisticated every day. 
When it comes to cybersecurity, the threat is constantly 
changing. It is our responsibility in Congress to help States 
arm themselves with advanced, adaptive strategies to prevent, 
detect, and recover from intrusions.
    On a lighter note, I am delighted to welcome a special 
guest in the gallery today, Ms. Bianca Lewis. Bianca just 
finished the 7th grade in Phillipsburg, New Jersey. She is a 
coder and an inventor who runs her own blog dedicated to her 
adventures in STEAM. That's science, technology, engineering, 
art, and mathematics. Bianca was also one of the young hackers 
featured at an exhibit that was hosted at last year's DEFCON 
technology conference in Las Vegas called Roots Asylum. At 
DEFCON, Bianca and other young people were able to exploit 
models of Secretary of State websites to delete content and 
change the voting results displayed. While the websites at 
DEFCON were models, and not part of any real life voting 
systems, they were designed with some of the known 
vulnerabilities that real life hackers have abused in recent 
years. I thank Bianca for being a leader for girls in tech and 
computer science, and for helping shine a light on 
cybersecurity and election infrastructure. It is so rewarding 
to see that the next generation is thinking big, and I'm glad 
that you and your family could be here today from New Jersey.
    I'm also pleased to welcome the distinguished witnesses on 
our panel, three of whom contributed to the very important 
recent report from the National Academies on Securing the Vote. 
Thank you all for being here today.
    [The prepared statement of Chairwoman Sherrill follows:]

    Good afternoon, and welcome to a joint hearing of the 
Investigations and Oversight and Research & Technology 
Subcommittees. It's good to be here with Ranking Member Norman, 
Chairwoman Stevens and Ranking Member Baird once again.
    We're here today to talk about election security and the 
various technologies and best practices that support it. And I 
want to start out by acknowledging something good:
    The experts tell us that the United States has, in fact, 
made enormous progress since 2016 toward protecting our 
election infrastructure. I applaud the Secretaries of State, 
the election officials, the poll workers and the systems 
administrators across this nation who have already been working 
hard to defy election interference. New Jersey, for example, is 
investing in a whole range of activities right now to prevent 
interference, including a pilot program for voter verified 
paper trails.
    But I remain worried about the enormous risks our election 
systems still face heading into 2020. And I have been really 
concerned about how attacks on our election system affect the 
American psyche. We have all seen anecdotes in the press about 
counties and states across the United States, where experts 
learn after the fact that an election system has been hacked. 
It is worth pointing out that we don't always see election 
systems actually being breached when they are targeted. 
Sometimes our systems work the way they are supposed to and 
keep intruders from doing harm.
    And we should find comfort when we learn of a crisis 
averted. But for the most part, we don't. These stories in the 
news allow us to see just how high the stakes are. They allow 
us to see how many ways there are to manipulate the system. 
These stories make the American people feel uncertain. And our 
peace of mind, our faith in the electoral process, is another 
casualty of interference. There are few things more central to 
the American covenant than the safety and security of our 
elections, where citizens from all walks of life can cast their 
vote and know it will be counted.
    Our foreign adversaries know this. The last two election 
cycles saw foreign interference in our election systems that 
tried to shake our faith in the U.S. election system - and in 
our fellow Americans. When I was in the Navy, I was a Russian 
policy officer and I saw firsthand how the Russians work to sow 
divisions. We know the Russian intelligence service has already 
attacked our election infrastructure across a number of states, 
and we have every reason to believe these attacks will escalate 
during the 2020 cycle. The methods that foreign and domestic 
actors use to corrupt our elections are growing more 
sophisticated every day. When it comes to cybersecurity, the 
threat is constantly changing. It is our responsibility in 
Congress to help states arm themselves with advanced, adaptive 
strategies to prevent, detect, and recover from intrusions.
    On a lighter note - I am delighted to welcome a special 
guest to the gallery today, Ms. Bianca Lewis. Bianca just 
finished seventh grade in Phillipsburg, New Jersey. She is a 
coder and inventor who runs her own blog dedicated to her 
adventures in STEAM - that's science, technology, engineering, 
arts and mathematics. Bianca was also one of the young hackers 
featured at an exhibit that was hosted at last year's Def Con 
technology conference in Las Vegas called the R00tz Asylum. At 
Def Con, Bianca and other young people were able to exploit 
models of Secretary of State websites to delete content and 
change voting results being displayed. While the websites at 
Def Con were models and not part of any real-life voting 
systems, they were designed with some of the known 
vulnerabilities that real-life hackers have abused in recent 
years.
    I thank Bianca for being a leader for girls in tech and 
computer science - and for helping shine a light on 
cybersecurity in election infrastructure. It is so rewarding to 
see that the next generation is thinking big - about big 
challenges. I'm glad that you and your family could be here 
from New Jersey for today's hearing.
    I am also pleased to welcome the distinguished witnesses on 
our panel, three of whom contributed to the very important 
recent report from the National Academies on Securing the Vote. 
Thank you all for being here.

    Chairwoman Sherrill. So the Chair now recognizes Mr. Norman 
for an opening statement.
    Mr. Norman. Thank you, Chairwoman Sherrill, and Chairwoman 
Stevens, for convening this important hearing, and thank you 
for each of the witnesses for taking the time to give your 
testimony this morning. We're here today to review the security 
of the United States' election system technologies, and discuss 
research to ensure the security, the integrity, and the 
accessibility of America's election systems. Today's hearing 
provides an opportunity to learn how the Federal Government can 
support State and local governments as they work to secure 
elections through research, technology, standards, and 
voluntary guidance, without burdensome Federal mandates.
    The 2000 Presidential election highlighted problems with 
punch card and lever voting systems, and brought to light new 
concerns about election integrity. To address these concerns, 
Congress enacted the Help American Vote Act of 2002, or better 
known as HAVA. HAVA provided money to the States to replace 
antiquated voting systems, established the United States 
Election Assistance Commission, or EAC, and required the 
National Institute of Standards and Technology (NIST) to 
provide technical support to the EAC to develop voluntary 
guidelines for voting systems.
    My home State of South Carolina recently decided to upgrade 
voting systems, and serves as an example of how the process 
should work. South Carolina officials conducted a lengthy 
evaluation of several options, and ultimately determined that 
upgrading to a ballot marking device was the option that best 
met the needs of our State. And this is how it should be, State 
and local officials figuring out what is best for their 
community. As Federal policymakers, we must remember that 
administration of elections is inherently a function of State 
and local governments. We should listen to our local election 
officials, and provide the reasonable support necessary to 
bolster the security of election systems, and to efficiently 
and effectively administer elections throughout the United 
States. This requires a flexible and a dynamic approach to 
security that can be molded by jurisdictions across the country 
to fit their specific needs. A one-size-fits-all approach is 
simply impractical and unworkable.
    I welcome the chance to hear from State and local election 
officials as we consider the issue of election system security, 
and look forward to their perspective on what role the Federal 
Government can play in ensuring that they have the information 
and support necessary to harden their election systems against 
present, and any future threats. We'll also hear today from 
representatives of academia, the private sector, and the 
Federal Government, which provides us with the opportunity to 
learn more about technologies and innovations that will improve 
America's election systems today, as well as research underway 
that may bolster election system security in the future. It's 
hard to imagine an issue of greater importance to our democracy 
than the security of America's election system.
    And while I appreciate that this Committee continues to 
approach critical issues of national importance in a bipartisan 
fashion, I would be remiss today if I didn't take the 
opportunity to highlight how partisan politics on the part of 
the House Democrat leadership has once again failed to proceed 
through regular order. Specifically, I'm disappointed but, you 
know, quite frankly I'm not surprised, as this is just another 
in a long list of political stunts by leadership's sudden 
decision to move H.R. 2722, the so-called Securing America's 
Federal Elections Act, to the floor this week without 
consideration by this very Science Committee, which rightfully 
received a referral on the bill. House Democratic leadership 
instead chose to rush this bill to the floor in order to 
satisfy far left progressives with yet another messaging bill 
that thankfully has absolutely no chance of being considered in 
the Senate. As today's hearings will demonstrate, the Science 
Committee has a crucial role to play in the consideration of 
any legislation that truly aims to improve the security of 
America's election systems. That being said, I look forward to 
a thoughtful and bipartisan discussion today of how we can 
improve the security of America's election systems now, and in 
the future.
    I want to thank each of our witnesses for being here, and 
thank you, Madam Chair, for convening this all-important 
hearing. And I want to thank the Hyatts, who are here from my 
hometown, who have played a part in the elections in South 
Carolina, for being with us today. Madam Chair, I yield back 
the balance of my time.
    [The prepared statement of Mr. Norman follows:]

    Thank you, Chairwoman Sherrill and Chairwoman Stevens, for 
convening this important hearing, and thank you to the 
witnesses for your testimony this morning.
    We are here today to review the security of U.S. election 
system technologies and discuss research to ensure the 
security, integrity, and accessibility of America's election 
systems.
    Today's hearing provides an opportunity to learn how the 
Federal government can support state and local governments as 
they work to secure elections through research, technology, 
standards, and voluntary guidance, without burdensome Federal 
mandates.
    The 2000 presidential election highlighted problems with 
punch card and lever voting systems and brought to light new 
concerns about election integrity. To address these concerns, 
Congress enacted the Help America Vote Act of 2002 (or 
``HAVA'').
    HAVA provided money to the states to replace antiquated 
voting systems, established the U.S. Election Assistance 
Commission (or ``EAC''), and required the National Institute of 
Standards and Technology to provide technical support to the 
EAC to develop voluntary guidelines for voting systems.
    My home state of South Carolina recently decided to upgrade 
voting systems and serves as an example of how the process 
should work. South Carolina officials conducted a lengthy 
evaluation of several options and ultimately determined that 
upgrading to a ballot marking device was the option that best 
met the needs of the state.
    And this is how it should be - state and local officials 
figuring out what is best for their community. As Federal 
policy makers, we must remember that administration of 
elections is inherently a function of state and local 
governments. We should listen to our local election officials 
and provide the reasonable support necessary to bolster the 
security of election systems, and to efficiently and 
effectively administer elections throughout the United States.
    This requires a flexible and dynamic approach to security 
that can be molded by jurisdictions across the country to fit 
their specific needs. A one-size-fits-all approach is simply 
impractical.
    I welcome the chance to hear from state and local election 
officials as we consider the issue of election system security 
and look forward to their perspective on what role the Federal 
government can play in ensuring they have the information and 
support necessary to harden their election systems against 
present and future threats.
    We will also hear today from representatives of academia, 
the private sector, and the Federal government, which provides 
us with the opportunity to learn more about technologies and 
innovations that will improve America's election systems today, 
as well as the research underway that may bolster election 
system security in the future.
    It's hard to imagine an issue of greater importance to our 
democracy than the security of America's election systems. And 
while I appreciate that this Committee continues to approach 
critical issues of national importance in a bipartisan fashion, 
I would be remiss if I didn't take the opportunity to highlight 
how partisan politics on the part of the House's Democrat 
leadership has once again failed to proceed through regular 
order.
    Specifically, I am disappointed-but quite frankly not 
surprised, as this is just another in a long line of political 
stunts-by leadership's sudden decision to move H.R. 2722, the 
so-called Securing America's Federal Elections Act, to the 
floor this week without consideration by the Science Committee, 
which rightly received a referral on the bill. House Democratic 
leadership instead chose to rush this bill to the floor in 
order to satisfy far-left progressives with yet another 
messaging bill that thankfully has no chance of being 
considered in the Senate.
    As today's hearing will demonstrate, the Science Committee 
has a crucial role to play in the consideration of any 
legislation that truly aims to improve the security of 
America's election systems.
    That being said, I look forward to a thoughtful and 
bipartisan discussion today of how we can improve the security 
of America's election systems, now and in the future.
    Thank you again to our witnesses for being here today. And 
thank you madam chair for convening this important hearing.
    I yield back the balance of my time.

    Chairwoman Sherrill. Thank you. The Chair now recognizes 
Chairwoman Stevens of the Subcommittee on Research and 
Technology for an opening statement.
    Chairwoman Stevens. Thank you, Chairwoman Sherrill. It's 
great to be here talking about election security and voting 
technology vulnerabilities, and we're certainly so grateful 
that we have the leadership in the House of Representatives 
willing to take on the severity of some of the election 
security breaches that we experienced in 2016, some of which 
have been long overdue, and the current Administration has 
failed to address. So, good afternoon, and welcome to this 
hearing.
    Certainly the elections of 2016 showed us how vulnerable 
our election infrastructure can be to foreign adversaries who 
interfere in the very foundation of our democratic process, and 
this has begun a national conversation on the security and 
integrity of our U.S. elections. Most election authority rests 
with the States, but, as Mr. Norman recognized, Congress 
created a Federal role in election administration and security 
with the Help America Vote Act of 2002, known as HAVA. And, 
under HAVA, the National Institute of Standards and 
Technologies, NIST, which--the Subcommittee that I have the 
privilege of chairing on Research and Tech has oversight over--
NIST was tasked with providing technical assistance and 
research to inform the development of voluntary voting 
systems--guidelines to be recommended to the Election 
Assistance Commission, the EAC. HAVA provided hundreds of 
millions of dollars to States to buy new voting equipment, but 
some of those old machines are still in use today, and States, 
not having--being--or not being required to implement the 
voluntary voting system guidelines in the purchase of new 
voting machines, were left with a gap. Only 38 States and the 
District of Columbia use some of the parts of the Federal 
testing and certification program for purchasing new voting 
equipment.
    With more than 10,000 election jurisdictions in the United 
States, there is certainly no one fit--no one-size-fits-all 
solution to election administration and security. In addition, 
most election administrators are well intentioned, but lack 
resources, awareness, and technical expertise. Cue the Federal 
Government. At the time of HAVA, voting technology was assumed 
to mean only the voting machine itself. Today, depending on the 
jurisdiction, a voter may be able to register online to vote, 
and have their name and address confirmed through an Internet 
connected electronic poll book, or e-poll book, at their 
polling site, in addition to casting their vote on an 
electronic machine. Unfortunately, many Americans still cast 
their vote on machines with no paper record.
    I know we will hear from our experts today that all--with 
all the conveniences that the Internet and the 21st century 
technology provide, paper ballots are still the most secure. 
But even if we implement paper records everywhere, we are still 
left with the new security challenges posed with online 
registration and e-poll books. As a champion and a believer of 
21st century technology, I am also still a champion for the 
analog skills that move us forward. In fact, every point of 
internet connectivity in the election system, including 
software development and updating, introduces a vulnerability. 
Security must be a priority at every step of our cherished 
democratic process. Free and fair elections are paramount.
    Last year the National Academies issued a consensus study 
report titled ``Securing the Vote: Protecting American 
Democracy''. This report included several recommendations for 
improving election security, including the need for national 
standards for e-poll books, voter registration databases, 
ballot handling procedures, and audits. Finally, the report 
included a strong statement that the Federal Government has a 
responsibility to invest in research to protect the integrity 
of elections, which is part of what we are here today to 
discuss. I certainly could not agree more, and I am glad to 
know that, in addition to NIST, the National Science Foundation 
carries out computer science and social science research that 
could be applicable to election systems. There needs to be more 
coordination. We are fans of inter-agency work here on this 
Committee, and a more robust dedication of research dollars for 
this purpose. The 2020 elections are not far away. I look 
forward to our witnesses' insight on the Academies' report, and 
other important recommendations for this Committee to take up. 
Thank you, and I yield back.
    [The prepared statement of Chairwoman Stevens follows:]

    Good afternoon and welcome to this hearing to review U.S. 
election security and voting technology vulnerabilities. I look 
forward to hearing testimony from our distinguished panel of 
witnesses on this important topic.
    The elections of 2016 showed us how vulnerable our election 
infrastructure can be to foreign adversaries who interfere in 
the very foundation of our democratic process and began a 
national conversation on the security and integrity of 
elections. Most election authority rests with the states. 
However, Congress created a federal role in election 
administration and security with the Help America Vote Act of 
2002, known as HAVA. Under HAVA, the National Institute of 
Standards and Technology, NIST, was tasked with providing 
technical assistance and research to inform the development of 
Voluntary Voting Systems Guidelines to be recommended to the 
Election Assistance Commission.
    HAVA provided hundreds of millions of dollars to states to 
buy new voting equipment, and some of those old machines are 
still in use today. Further, states are not required to 
implement the Voluntary Voting System Guidelines in the 
purchase of new voting machines. Only 38 states and the 
District of Columbia use some part of the federal testing and 
certification program for purchasing new voting equipment.
    With more than 10,000 election jurisdictions in the United 
States, there is no one size fits all solution to election 
administration and security, but these Guidelines are intended 
to have broad application. In addition, most election 
administrators are well intentioned but unfortunately lack the 
resources, awareness, and technical expertise to implement the 
vital security needs of today.
    At the time of HAVA, voting technology was assumed to mean 
only the voting machine itself. Today, depending on the 
jurisdiction, a voter may be able to register online to vote 
and have their name and address confirmed through an internet-
connected electronic poll book (or e-poll book) at their 
polling site, in addition to casting their vote on an 
electronic machine.
    Unfortunately, many Americans still cast their vote on 
machines with no paper record. I know we will hear from our 
experts today that, with all of the conveniences that the 
internet and 21st century technology provide, paper ballots are 
still the most secure. But even if we implement paper records 
everywhere, we are still left with the new security challenges 
posed with online registration and e-poll books. In fact, every 
point of internet connectivity in the election system, 
including software development and updating, introduces a 
vulnerability. Security must be a priority at every step of our 
cherished democratic process.
    Last year, the National Academies issued a consensus study 
report titled, "Securing the Vote - Protecting American 
Democracy." This report included several recommendations for 
improving elections security, including the need for national 
standards for e-poll books, voter registration databases, 
ballot handling procedures, and audits. Finally, the report 
included a strong statement that the federal government has a 
responsibility to invest in research to protect the integrity 
of elections. I couldn't agree more, and am glad to know that 
in addition to NIST, the National Science Foundation carries 
out computer science and social science research that could be 
applicable to election systems. However, there needs to be more 
coordination and a more robust dedication of research dollars 
for this purpose.
    The 2020 elections are not far away, I look forward to our 
witnesses' insight on the Academies' report and other important 
recommendations for actions this Committee can take to help.
    Thank you and I yield back.

    Chairwoman Sherrill. Thank you, and the Chair now 
recognizes Dr. Baird of the Subcommittee on Research and 
Technology for an opening statement.
    Mr. Baird. Thank you, Chairwoman Sherrill, and Chairwoman 
Stevens, for convening this day's hearing to review the 
security of U.S. election system technologies. Voting is a 
fundamental right of every American citizen, and ensuring the 
right to a safe and secure election is the responsibility of 
every Member of Congress. Without security, integrity, and 
accuracy in our electoral process, the foundation of our 
Nation, in fact, our democracy, is weakened. I look forward to 
hearing from our witnesses this afternoon about how the Federal 
Government can support State and local governments in ensuring 
safe and secure elections through research, technology testing, 
audits, and voluntary guidance.
    As we all know, under our Constitution, the Federal system 
elects an Administration is, and should be, the responsibility 
of State and local governments. Our founders believed that 
government is more transparent, responsive, and accountable 
when it's closest to the people, which is why the Constitution 
gave the responsibility of our elections to the States. To this 
end, Congress' role is to empower State officials to strengthen 
the security of their unique election systems, and effectively 
administer elections, not to try to dictate a one-size-fits-
all. The Help America Vote Act established the Federal Election 
Assistance Commission, and requires the National Institute of 
Standards and Technology, NIST, to work with the Commission on 
technical, voluntary guidelines, and voting systems. These 
voluntary guidelines are an important tool for State and local 
elected officials to ensure the functionality and accuracy of 
the State's unique system. They allow the testing of voting 
systems to determine the basic functionality, accessibility, 
and security capabilities. They also offer flexibility, which 
is important, given the variation of election infrastructure 
from State to State.
    I look forward to hearing from Dr. Romine about the most 
recent iteration of voluntary voting system guidelines, which 
is expected to be released soon. I believe it's also valuable 
that this Committee has the opportunity to hear what new and 
evolving challenges States are facing, and how States are using 
Federal resources to overcome unique challenges, including how 
and if these guidelines and protections are being effectively 
adopted. I expect Secretary Ziriax and Mr. Kelley will have 
particularly good insight into these challenges.
    There's no doubt that there is a need for improved security 
of our elections. We know that at least 21 States have been 
targeted by foreign state actors prior to the 2016 U.S. 
election, and we know that Russian undertook disinformation 
campaigns on social media in that same election. This is 
troubling, but we must also acknowledge that no votes were 
changed in the 2016 election, and the 2018 midterm elections 
were secure, with a record number of voter participation. We 
must examine what we can learn from these past elections and 
improve upon them. We can make progress on this issue. I want 
to again thank Chairwoman Sherrill and Chairwoman Stevens for 
holding this hearing, and I hope that we will take a bipartisan 
look at the challenges of election security.
    As my colleague, Ranking Member Norman, noted, this matter 
has not been addressed in a bipartisan manner thus far this 
Congress. But I hope this hearing will illustrate how progress 
can be made in keeping our Nation's elections secure, and free 
from interference. Thank you, and I yield back.
    [The prepared statement of Mr. Baird follows:]

    Thank you, Chairwoman Sherrill and Chairwoman Stevens, for 
convening today's hearing to review the security of U.S. 
election system technologies.
    Voting is a fundamental right of every American citizen and 
ensuring the right to safe and secure elections is the 
responsibility of every Member of Congress.
    Without security, integrity, and accuracy in our electoral 
process, the foundation of our nation - our democracy - is 
weakened.
    I look forward to hearing from our witnesses this afternoon 
about how the federal government can support State and local 
governments in ensuring safe and secure elections through 
research, technology testing, audits and voluntary guidance.
    As we all know, under our Constitution and federal system, 
election administration is and should be the responsibility of 
State and local governments.
    Our Founders believed that government is more transparent, 
responsive, and accountable when it is closest to the people, 
which is why the Constitution gave the responsibility of our 
elections to the States.
    To this end, Congress' role is to empower state officials 
to strengthen the security of their unique election systems and 
effectively administer elections, not to try to dictate a one-
size-fits-all approach.
    The Help America Vote Act of 2002 (HAVA) established the 
federal Election Assistance Commission (EAC) and requires the 
National Institute of Standards and Technology (NIST) to work 
with the Commission on technical, voluntary guidelines for 
voting systems.
    These voluntary guidelines are an important tool for state 
and local election officials to ensure the functionality and 
accuracy of that state's unique system.
    They allow for the testing of voting systems to determine 
the basic functionality, accessibility, and security 
capabilities.
    They also offer flexibility, which is important given the 
variation of election infrastructure from state to state.
    I look forward to hearing from Dr. Romine about the most 
recent iteration of the Voluntary Voting System Guidelines, 
which is expected to be released soon.
    I believe it is also valuable that this Committee has the 
opportunity to hear what new and evolving challenges states are 
facing and how states are using federal resource to overcome 
these unique challenges - including how and if these guidelines 
and protections are being effectively adopted.
    I expect Secretary Ziriax and Mr. Kelley will have 
particularly good insight into these challenges.
    There is no doubt that there is a need for improved 
security of our elections - we know that at least 21 states 
were targeted by foreign state actors prior to the 2016 U.S. 
election and we know that Russia undertook disinformation 
campaigns on social media in that same election.
    This is troubling, but we must also acknowledge that no 
votes were changed in the 2016 election and the 2018 midterm 
elections were secure with a record number of voter 
participation.
    We must examine what we can learn from these past elections 
and improve upon them. We can make progress on this issue.
    I want to again thank Chairwoman Sherrill and Chairwoman 
Stevens for holding this hearing, and what I hope will be, a 
bipartisan look at the challenges of election security.
    As my colleague, Ranking Member Norman noted, this matter 
has not been addressed in a bi-partisan manner thus far this 
Congress, but I hope this hearing will illustrate how progress 
can be made in keeping our nation's elections secure and free 
from interference.
    Thank you and I yield back the balance of my time.

    Chairwoman Sherrill. Thank you, Dr. Baird. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you Madam Chair, and I would like to join you in 
welcoming our witnesses this afternoon.
    I'm glad we're holding this hearing today on such an 
important topic. The election system is decentralized and 
complicated. There are many different aspects of it that rely 
on technology in some form. As a result, there are numerous 
challenges and solutions to making sure our election system is 
secure, fair and accessible. Elections security, as we all 
know, is an active topic of conversation in Congress right now, 
as it should be. It is an urgent topic for our nation.
    The Science Committee will do what it does best today - we 
will talk about the technology. My home state of Texas is a 
case study in how advanced technologies are both promising and 
perilous when it comes to the administration of elections. The 
2018 election cycle saw a terrible episode in Texas in which 
malfunctioning electronic voting machines ended up changing 
some voters' selections from Democrat to Republican, and 
deleted some voters all together. This occurred across at least 
78 counties. And the machines where this happened were 
paperless, which means it was impossible to go back and compare 
the voters' intent with what the device actually recorded. To 
underscore the gravity of what happened in 2018, the Texas 
Civil Rights Project issued a statement that this event ``is 
threatening to call into question the entire election in 
Texas.'' To wit, in a court case that resulted from a similar 
episode in the state of Georgia, a judge ultimately decided 
that continued use of paperless systems can harm our 
constitutional rights to a free and fair election.
    We were somewhat relieved to learn that cybersecurity 
experts believe that the voting machine anomalies in Texas can 
be attributed to old technology and not to hackers. But it is 
easy to imagine how a bad actor might seek to take advantage of 
exactly this kind of vulnerability in Texas and across the 
country. On the other hand, Texas is looking at some exciting 
reforms. This year the Texas House is considering legislation 
that would implement automatic voter registration when eligible 
residents interface with the Department of Motor Vehicles. This 
proposal will not only make it more convenient for citizens to 
participate in the democratic process, it will also save money 
for state elections administrators and may help make the 
registration process more secure.
    I hope that the experiences we have in Texas can be used as 
lessons learned for other states. In fact, I believe almost 
every state and jurisdiction is working hard to improve their 
systems and make them more secure and accessible. The Federal 
government has a role in shepherding the development of 
voluntary guidelines for secure elections and in providing 
technical and other assistance to state and local election 
administrators. We all need to learn from each other. Our very 
democracy is on the line.
    I want to thank Chairwoman Sherrill, Ranking Member Norman, 
Chairwoman Stevens and Ranking Member Baird for holding this 
hearing, and I yield back the balance of my time.

    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Sherrill, Chairwoman Stevens, Ranking 
Member Norman, and Ranking Member Baird, for holding today's 
hearing.
    The integrity and security of elections is fundamental to 
democracy in the United States. Americans must have confidence 
in the accuracy of election results, or we risk losing the 
public trust in government and our political system.
    Although there is no evidence to date that a single vote 
was changed in the 2016 or 2018 elections due to a cyberattack 
or foreign interference, we know that our adversaries are 
looking to erode public confidence in elections.
    Prior to the 2016 federal election, a series of 
cyberattacks occurred on information systems of state and local 
election jurisdictions. The Federal Bureau of Investigation 
(FBI) announced that some state election jurisdictions had been 
the victims of cyberattacks aimed at exfiltrating data from 
information systems in those jurisdictions. The attacks 
appeared to be of Russian-government origin.
    Although these attacks did not result in actual votes being 
changed, they served as a warning to Federal, State, and local 
officials that we must be vigilant about securing our 
elections.
    The U.S. Constitution vests the responsibility of 
administering elections with State and local governments. 
However, the Federal government has an important role to play, 
in providing guidance and assistance to states on election 
systems. The Federal government can and should also work 
closely with State and local election officials to deal with 
foreign and domestic cyber threats.
    Concerns with earlier versions of voting and election 
systems led to the passage of the 2002 Help America Vote Act 
(HAVA). This Act requires the National Institute of Standards 
and Technology (NIST), over which our Committee has 
jurisdiction, to work with the Election Assistance Commission 
(EAC) on technical, voluntary guidelines for voting.
    NIST plays an important role in conducting research on 
election systems and providing technical assistance and 
guidelines. NIST is a trusted partner by both industry and 
State governments. Because these guidelines are voluntary, 
States and private companies are more willing to share 
information with the agency, which results in better voluntary 
standards and guidelines. It is important that we support NIST 
in this work, and not erode their role in election security.
    In Oklahoma, we have an election system that is secure, 
reliable, and provides timely results. I want to thank Mr. Paul 
Ziriax, Secretary of the Oklahoma State Election Board, for 
testifying today. Oklahomans can trust in the results of our 
State's elections, thanks to the thoughtful work of Paul and 
his staff. I look forward to hearing about how the Federal 
government can best support states like Oklahoma in their work, 
without creating mandates that are one-size-fits all.
    What works for California might not work for Oklahoma, and 
I am glad we have two State and local election officials on the 
panel to hear what tools they need to administer secure 
elections in their jurisdictions.
    The Science Committee has demonstrated over the last few 
months how Committees should work. Under the leadership of 
Chairwoman Eddie Bernice Johnson, we have been conducting 
hearings and moving legislation under regular order, and in a 
bipartisan and productive fashion, to make progress for the 
American people.
    Unfortunately, the Democratic leadership of the House has 
chosen to ignore the Committee process, and rush two partisan 
bills to the floor in the name of "election security," 
including H.R. 2722, a bill that will be considered on the 
House floor later this week. That bill is partially in the 
Science Committee's jurisdiction, but leadership ignored 
regular order, and never gave our Committee members the 
opportunity to consider the legislation.
    Unfortunately, that partisan bill goes far beyond securing 
elections - setting mandates on State and local governments for 
the administration of elections that have nothing to do with 
security or election integrity.
    Republicans want to work with Democrats on election 
security. I hope this hearing demonstrates that commitment on 
both sides of the aisle and lays the groundwork for bipartisan 
legislation out of this Committee to update NIST's election 
security activities.
    Again, thank you to the chairs and ranking members for 
holding this hearing. I yield back.

    Chairwoman Sherrill. And, at this time, I would like to 
introduce our five witnesses.
    First, we have Dr. Charles Romine is the Director of the 
Information Technology Laboratory at the National Institute of 
Standards and Technology, or NIST. And, Doctor, I'm not sure if 
I should offer you congratulations or condolences, I hear this 
is your 20th time testifying before us, so welcome again.
    Mr. Neal Kelley is the Registrar of Voters for Orange 
County, California. Mr. Kelley is also a member of the National 
Academies of Science, Engineering, and Medicine, Committee on 
the Future of Voting. This committee contributed to the 
publication of the 2018 National Academies consensus study 
report titled, ``Securing the Vote.'' Thank you for coming 
today.
    Dr. Latanya Sweeney is a Professor of government and 
technology in the Department of Government at Harvard 
University's Institute for Quantitative Social Science. Thank 
you.
    And then Dr. Benaloh is a Senior Cryptographer at Microsoft 
Research. Dr. Benaloh also contributed to the National 
Academies ``Securing the Vote'' report.
    And, to introduce our final witness, I recognize 
Congresswoman Horn of Oklahoma's 5th Congressional District.
    Ms. Horn. Thank you, Madam Chairwoman. I am honored today 
to be able to introduce not only our Election Secretary, but 
also one of my constituents from Oklahoma City, and I'm honored 
to be able to join you on this Subcommittee today on such an 
important issue.
    Secretary Paul Ziriax has served as the Secretary of 
Oklahoma State Election Board since 2009, and as--in that 
capacity as our chief election official. He also serves as the 
Oklahoma--the Secretary of the Oklahoma Senate by way of a 1913 
Oklahoma law that requires the Secretary of the Senate to also 
serve as the Secretary of the Education--or the Election Board.
    Originally from Claremore, Ziriax has worked as a senior 
aide in the Oklahoma State Senate, Chief of Staff, and Press 
Secretary to a Member of Congress from Oklahoma, as a radio 
station music director and announcer. Ziriax is a member of the 
National Association of Election Directors, and the American 
Society of Legislative Clerks and Secretaries, and is a past 
appointee to the Oklahoma Capital Preservation Commission. He's 
an alumnus of Oklahoma State University in Stillwater, and 
finally, especially as related to this hearing today, I am 
proud of Oklahoma's election system because of our paper 
ballots, and a number of other security features that allow us 
to know the security and veracity of our elections, which is 
one of the things that we are talking about here today. So the 
work of Secretary Ziriax, and the staff of the Oklahoma State 
Election Board, has been very important, and I'm glad that you 
could join us today, and look forward to your testimony.
    Chairwoman Sherrill. Well, thank you. Now I feel guilty I 
didn't give the rest of you the great intro. But, as our 
witnesses should know, you will each have 5 minutes for your 
spoken testimony. Your written testimony will be included in 
the record for the hearing. When you all have completed your 
spoken testimony, we will begin with questions. Each Member 
will have 5 minutes to question the panel. And let's start with 
you, Dr. Romine.

               TESTIMONY OF DR. CHARLES H. ROMINE,

          DIRECTOR, INFORMATION TECHNOLOGY LABORATORY,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Romine. Chairwoman Sherrill, Ranking Member Norton, 
Chairwoman Stevens, Ranking Member Baird, and Members of the 
Subcommittees, I'm Charles Romine, the Director of the 
Information Technology Laboratory at the Department of 
Commerce's National Institute of Standards and Technology, or 
NIST. Thank you for the opportunity to appear before you today 
to discuss our role in what NIST is doing in election security.
    For more than a decade, as directed by both the Help 
America Vote Act of 2002, or HAVA, and the Military and 
Overseas Voter Empowerment Act, NIST has partnered with the 
Election Assistance Commission, the EAC, to develop the 
science, tools, and standards necessary to improve the 
accuracy, reliability, usability, accessibility, and security 
of voting equipment used in Federal elections for both domestic 
and overseas voters. Under HAVA, NIST provides technical 
support to the Technical Guidelines Development Committee 
(TGDC), which is the Federal advisory committee to the EAC in 
areas such as the security of computers, computer networks, and 
computer data storage used in voting systems, methods to detect 
and prevent fraud, protection of voter privacy, the role of 
human factors in the design and application of voting systems, 
the remote access voting, including voting through the 
Internet.
    This technical support includes intramural research and 
development in areas to support the development of a set of 
Voluntary Voting System Guidelines, referred to as the VVSG, or 
the Guidelines. The Guidelines are used by accredited testing 
laboratories as part of both State and national certification 
processes by State and local election officials who are 
evaluating voting systems for potential use in their 
jurisdictions, and by manufacturers who need to ensure that 
their products fulfill the requirements so they can be 
certified.
    The Guidelines address many aspects of voting systems, 
including determining system readiness, ballot preparation and 
election definition, voting and ballet counting operations, 
safeguards against system failure, and protections against 
tampering, ensuring the integrity of voted balance, and 
protected data during transmission and auditing. Almost 
immediately following the adoption of Voluntary Voting System 
Guidelines 1.1, NIST established a set of public working groups 
to gather input from a wide variety of stakeholders on the 
development of the next iteration of the Guidelines, the VVSG 
2.0. This approach pulled in subject-matter experts across the 
Nation, with 994 members across seven working groups. Within 
the working groups, the cybersecurity working group has grown 
to 175 members, and it engages in discussions regarding the 
security of U.S. elections. Guidelines 2.0 addresses these 
evolving security concerns. It includes support for advanced 
auditing methods, as well as enhanced authentication 
requirements, and mandates two-factor authentication. The 
system integrity section in Guidelines 2.0 ensures that 
security protections developed by industry over the past decade 
are built into the voting system.
    Other security issues to be resolved, beyond those 
mentioned in the Guidelines, include the need for regular and 
timely software updates and security patches. Networked 
communication is another important security issue currently 
under discussion. Many election jurisdictions rely on public 
telecommunication networks for certain election functions, such 
as reporting results to State agencies and media outlets on the 
night of the election. These connections, however brief, are a 
significant expansion of threat surface, and their security 
requires further study.
    NIST participates in the DHS (Department of Homeland 
Security) Election Security Initiative federal partner 
roundtable, and kicked off the election profile of the 
cybersecurity framework effort in March 2019. NIST will hold 
workshops in July and in August to identify election processes 
and assets that need protection, threats from foreign control 
technology vendors, available safeguards, techniques that can 
detect incidents, and methods to respond and recover. The 
election profile will serve as a one-stop cybersecurity 
playbook that matches cybersecurity requirements with 
operational methodologies across all election processes, from 
voter registration through election reporting and auditing. The 
profile can be used by Secretaries of State, State and local 
election officials to identify and prioritize opportunities to 
improve their cybersecurity posture. NIST expects that an 
initial draft of the election profile of the cybersecurity 
framework will be available in the fall of 2019.
    NIST is continuing to address election security by 
strengthening the VVSG for voting systems, such as vote capture 
and tabulation, and by working with our government partners, 
including the EAC, to provide guidance to State and local 
election officials on how to secure their election systems, 
including voter registration and election reporting systems.
    Thank you for the opportunity to testify on NIST's work 
regarding election security, and I'll be pleased to answer any 
questions that you may have.
    [The prepared statement of Dr. Romine follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Sherrill. Well, thank you very much. And, Mr. 
Kelley?

                  TESTIMONY OF MR. NEAL KELLEY,

         REGISTRAR OF VOTERS, ORANGE COUNTY, CALIFORNIA

    Mr. Kelley. Good afternoon, Chairwoman Sherrill, Chairwoman 
Stevens, Ranking Member Baird, Ranking Member Norman, and 
Members of the Subcommittee on Investigations and Oversight, 
and the Subcommittee on Research and Technology. My name is 
Neal Kelley. I'm the Chief Election Official, Registrar of 
Voters, for Orange County, California. Thank you for the 
invitation to speak today.
    I'd like to address four specific things: The key findings 
of the National Academies of Sciences, Engineering, and 
Medicine's consensus study report; ``Securing the Vote: 
Protecting American Democracy'', the best practices used in 
Orange County, including the use of paper trails with voting 
machines, electronic poll books, and risk limiting audits; 
barriers States' and counties' encounter in the pursuit of 
enhancing election security; and how I believe Congress can 
further assist States and counties with securing election 
system technologies.
    As a member of the National Academies' Committee on the 
Future of Voting, I have submitted the report highlights for 
Federal policymakers along with my testimony today. I would 
also like to share the insights I have gained as an election 
administrator. In the 2 decades following the 2000 Presidential 
election, numerous initiatives have been undertaken to improve 
our election systems. Although progress has been made, old and 
complex problems persist, and new problems emerge. Aging 
equipment, number one, the targeting of our election 
infrastructure by foreign actors, a lack of sustained funding 
dedicated to election security, inconsistency in the skills and 
capabilities of elections personnel, and growing expectations 
that voting should be more accessible and convenient, as well 
as secure, complicate the administration of elections in the 
United States.
    Working together, NIST and the Election Assistance 
Commission have made numerous contributions to the improvement 
of electronic voting systems by providing critical technical 
expertise. The Voluntary Voting System Guidelines, otherwise 
known as VVSG, developed by the EAC in collaboration with NIST, 
are particularly important. Nevertheless, despite the critical 
roles that these agencies plays--play in strengthening election 
infrastructure, there is currently a very limited pool of 
ongoing financial support.
    While one-time funding has been historically allocated, 
election cybersecurity is known to be an ongoing challenge that 
will require a constant effort to better understand threats and 
vulnerabilities. The National Academies' report recommends that 
the EAC and NIST, the architects, developers, and shepherds of 
the VVSG, continue the process of refining and improving the 
VVSG to reflect changes in how elections are administered; to 
respond to new challenges to election systems as they occur, 
such as the threat of cyber attacks; and to research how new 
digital technologies can be used by Federal, State, and local 
governments to secure elections. Our report further recommends 
that a detailed set of cybersecurity best practices for State 
and local election officials be developed, maintained, and 
incorporated into election operations, and that the VVSG be 
periodically updated in response to new threats and challenges.
    Electronic voting systems that do not produce a human-
readable paper ballot of record are a particular concern, as 
the absence of a paper record raises security and vulnerability 
issues. Because of this, our report recommended that all 
elections should be conducted with human-readable paper 
ballots. We also recommend the use of risk limiting audits. An 
RLA is not considered to be performance audit, as it seeks to 
ensure accuracy that the reported outcome would be the same if 
all ballots were examined manually, and that any different 
outcome has a high likelihood of being detected and corrected. 
The National Academies' report also recommends that the use of 
the Internet, or any network connected to the Internet for a 
voter to cast a ballot, or the return of a marked ballot, 
should not be permitted.
    There is no known technology that guarantees the secrecy, 
verifiability, and security of a marked ballot transmitted over 
the Internet. Voter registration databases are also vulnerable 
to cyberattacks, whether it is a standalone, or is connected to 
other applications. Presently, election administrators are not 
required to report any detected compromises or vulnerabilities 
in voter registration systems, and our report recommends that 
States make it mandatory for election administrators to report 
these instances when it occurs to the Department of Homeland 
Security, the EAC, and State officials.
    As the fifth largest voting jurisdiction in the United 
States, Orange County, California is in the fortunate position 
of being able to allocate resources and staff to support pilot 
programs, and determine best practices for the use of paper 
audit trails, voting machines, and electronic poll books. On 
the matter of election security, in Orange County we remain 
closely connected to our local fusion center, and to 
information sharing and analysis centers. In addition, I 
routinely invite security experts to conduct audits and testing 
on our systems to identify vulnerabilities, and to propose 
solutions. Electronic poll books must meet high-level security 
requirements to be used in California, and my office has placed 
additional requirements on potential electronic poll book 
solutions. Data must be encrypted while in transmission, and 
while at rest. Nevertheless, not every election office has the 
resources that we have in Orange County. There are hundreds, if 
not thousands, of election offices where only a handful of 
dedicated staff are on hand to run their jurisdiction's 
elections. To share the knowledge and experience----
    Chairwoman Sherrill. Wrap it up quickly, please.
    Mr. Kelley. Going quickly. I released the 2018 Election 
Security Playbook for Orange County elections, and I have 
attached that to my written testimony.
    Chairwoman Sherrill. Thank you.
    Mr. Kelley. And thank you, and I look forward to your 
questions.
    [The prepared statement of Mr. Kelley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairwoman Sherrill. Thank you. I appreciate it. Dr. 
Sweeney?

                TESTIMONY OF DR. LATANYA SWEENEY,

                     PROFESSOR OF GOVERNMENT

                  AND TECHNOLOGY IN RESIDENCE,

          DEPARTMENT OF GOVERNMENT, HARVARD UNIVERSITY,

            INSTITUTE OF QUANTITATIVE SOCIAL SCIENCE

    Dr. Sweeney. Thank you, Chairwoman Sherrill, Ranking Member 
Norman, Chairwoman Stevens, Ranking Member Baird, and Members 
of the Committee. I'm not going to--I presented a written 
testimony I'm not going to read from, and instead like to give 
you just some highlights. Let me first tell you a little bit 
about myself. I have a Ph.D. in Computer Science from MIT. I'm 
a Professor of government at Harvard University, and I was the 
former Chief Technology Officer of the Federal Trade 
Commission. For the last 20 years, my research mission has been 
to scientifically investigate and reveal unforeseen 
consequences of technology and its impact on society. I put 
names to health data that was supposed to be anonymous at--and 
that's cited in the preamble of HIPAA (Health Insurance 
Portability and Accountability Act), and it led to a new field 
of study called data privacy. I documented adverse racial 
discrimination in online ad delivery that's led to a new area 
of computer science study called algorithmic fairness. I 
trained students to be these same type of technologists to work 
in the public interest, and my students have improved practices 
at CMS (Centers for Medicare and Medicaid Services), Facebook, 
Airbnb, just to name a few.
    In 2016, we gathered together 50 computer scientists, and 
social scientists, and civil society organizations, and said, 
what are the most pressing problems? They made a list of 75. We 
then asked them to tell us which problem did they think was the 
most important for us to investigate for the year? They said 
elections. It was January 2016, and we began doing just that. 
We found different kinds of problems around misinformation 
campaigns, and things like that on the Internet they got--that 
were brought to our attention.
    Eventually, though, we began realizing how broad the 
election system is. The surface area of it is huge. Every one 
of those boxes has its own nature of a vulnerability. And we 
are only--and the rest of my talk is only going to talk about 
what's in that upper left corner. It was motivated by what 
happened in Riverside County during the primaries in 2016, in 
which Republican--it was a close primary. Republicans showed 
up, and instead of getting a Republican ballot, they got 
everything but--many--hundreds of them got everything but a 
Republican ballot. There was no break-in, there was no database 
breach, it just seemed like somebody changed all these records 
through the online system.
    And so this idea that you could just change a voter's 
address, which changes their polling place, which could 
disenfranchise voters, not--in a primary, but just in the 
general election, and there are other ways too, that if you 
impersonate a voter, and you could go online, you could make a 
big difference, whether you wanted to make a local impact on a 
local election, whether you wanted to shave points off of an 
election, or whether you wanted to disrupt the election 
altogether. So that gave us a set of research questions, and we 
dug in. We found 35 States, and the District of Columbia, had a 
website in which a person could change their voter registration 
online. These were not always voter registration websites. Many 
of them were also from the Motor Vehicle Division as well.
    As you can see, the big problem here is, how does the State 
know who you are? In the case of Delaware, it--using this 
system, it was the first name, last name, date of birth, and 
zip code. But there are many places where I could find the 
name, date of birth, and zip code of people who live in 
Delaware. That--an alternative that used the driver's license 
and date of birth is another example from Alabama. This is the 
summary for all of the websites that we found, and the 
information that they require. Most of them require some 
combination of demographics, like name, or date of birth, or 
maybe address. Some of them require some government-issued 
number, like a Social Security Number (SSN), or a part of it, 
or a driver's license number. None of them necessarily require 
all of them, or they were the same.
    Second question, though, is where would you get this data? 
And we found no shortage of the availability of the data. You 
could buy voter lists directly, you could buy voter lists from 
brokers that had a lot of the information. Some voter lists 
were just posted freely online. We surveyed about 500 popular 
data brokers to get SSNs and other kind of information, and we 
went on the dark web and found that you could find a disturbing 
amount of information also, including all of the Social 
Security Numbers of Americans.
    At the time, 11 of those websites had captchas, these ways 
to try to figure out who you were, but in 2016 every captcha, 
including the Google captcha you see at the bottom, could be 
automated to be defeated. So with people who had virtually no 
experience, with about one page of Python code, you could 
automate an attack, and the cost of doing that, including the 
virtual machines to do it, and to weight its time, turned--if I 
wanted to shave 1 percent of the voter information off of the 
voters from that--from those locations, it would be $24,000 
across all of them. If I use name sources. It drops to 10,000 
if I was willing to also use dark net information as well. 
We're not saying that it did happen. We're just saying that 
this is--it's possible to happen, and it's a real 
vulnerability. Homeland Security had recommended this kind of 
vulnerability assessment. We're happy that we were able to 
participate, and we are updating now as to what has been the 
response.
    I'd better stop there. Thank you.
    [The prepared statement of Dr. Sweeney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Sherrill. Thank you. Mr. Ziriax?

                  TESTIMONY OF MR. PAUL ZIRIAX,

            SECRETARY, OKLAHOMA STATE ELECTION BOARD

    Mr. Ziriax. Thank you very much. And I do want to thank my 
representative, Ms. Horn, for the kind introduction. I am her 
constituent, so I think that's a prerequisite when here, but 
thank you very much for that. I also want to thank the full 
Committee Ranking Member, Mr. Lucas, who is also from Oklahoma, 
who ensured my invitation here today. So, Chairwomen Sherrill 
and Stevens, and Ranking Members Norman and Baird, also 
Chairwoman Johnson of the full Committee, and distinguished 
Members of the Subcommittees, I want to thank you for the 
opportunity to testify today. My name is Paul Ziriax. I'm the 
Secretary of the Oklahoma State Election Board, and the Chief 
State Election Official. Different from many States, Oklahoma 
has a voting system that is uniform, and Statewide, owned and 
controlled by the State Election Board. Our system utilizes 
paper ballots that are hand-marked by voters, and counted by 
accurate, reliable, precinct-based optical scanners. And no 
matter where you are in our State, voting is the same. We have 
the same style of ballots, the same voting hours, the same 
standards and regulations, and the same accurate optical 
scanners.
    In my written testimony you can read much more about 
Oklahoma's election system and procedures, including our 
relatively low costs, the bipartisanship of the system, the--
and the speed with which we are able to count ballots and 
certify results. In my opinion, Oklahoma's uniform system helps 
make it more secure, easier to maintain, more efficient, more 
cost effective, and more equitable to voters across our State. 
In my written testimony you can read about our--security 
features of the system, but we are very proud that our system 
is auditable and verifiable. At my request, my State 
legislature passed a new law this year that authorizes post-
election audits beginning in 2020. But, as an election 
official, I do want to say, although I want to make voting and 
voter registration as convenient and as accessible as possible, 
we, as election administrators and policymakers, must be 
cautious about sacrificing too much security in the name of 
convenience.
    I will say, in 2017, when I learned from Homeland Security 
that Oklahoma was unsuccessfully targeted--was one of the 21 
States unsuccessfully--or at least we were unsuccessfully 
targeted, we have taken a number of steps to improve election 
security. For example, our systems are actively monitored and 
protected by our State Cyber Command. We joined several Federal 
and State agencies to create an election security working group 
to enhance communication and information sharing. We are 
members of the EI-ISAC, which is the election infrastructure 
information sharing network. We work closely with State Cyber 
Command, NASED (National Association of State Election 
Directors), and social media sites to help protect against 
misinformation campaigns, and our county election boards are 
now required to notify the State if physical intrusions or 
cyber incidents occur in their counties.
    Now, speaking only for myself, I do want to offer some 
recommendations. The VVSG, which was mentioned earlier, should 
remain voluntary, and should contain broad-based goals that 
States can determine how best to implement. These standards, 
though, must be flexible so that they can adapt to changing 
threats and technology. Academia should work closely with 
current election administrators so that its recommendations are 
viable in the real world of election administration. All of us 
in this room should take great care so as not to unnecessarily 
alarm the public, or cause distrust in elections, especially 
when discussing theoretical threats without noting actual 
protections that exist against those threats.
    Under our Federal system, the States should continue to 
administer elections in our country. I do not believe that 
election administration should be Federalized, and that--I 
believe that mandatory standards and certification procedures 
should not be forced on the States. The Federal Government 
should make technical assistance, best practices, voluntary 
standards, and intelligence available to the States. Sustained 
Federal funding for election security, or for upgrading voting 
systems, can be very helpful, but excessive mandates could 
cause States to refuse those Federal grants. When possible, I 
think intelligence regarding election security threats should 
be declassified quickly and shared with State and local 
election officials. And I do believe that every State should 
use voting systems that are auditable and verifiable, but that 
States should determine the best methods for auditing their 
elections.
    In closing, my biggest concern as an election official is 
protecting the public's faith and confidence in the integrity 
of our elections. If citizens lose faith in our elections, then 
we risk losing our very representative republic. Physical 
security and cybersecurity are a great concern, but the easiest 
way to disrupt our elections, and what we've already observed, 
is for our adversaries to sow discord and spread 
misinformation. I encourage Federal policymakers to keep in 
mind that each State is different, and that imposing a one-
size-fits-all mandate on the States for election policies or 
security procedures could be disruptive and expensive, and 
could unnecessarily create an adversarial relationship at a 
time when a cooperative partnership is needed. And, with that, 
I thank you for the time.
    [The prepared statement of Mr. Ziriax follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Sherrill. Thank you. Dr. Benaloh?

                 TESTIMONY OF DR. JOSH BENALOH,

            SENIOR CRYPTOGRAPHER, MICROSOFT RESEARCH

    Dr. Benaloh. Thank you, and good afternoon Chairs, Ranking 
Members, other Members of the Subcommittees. I very much 
appreciate the opportunity to speak before you this afternoon. 
My name is Josh Benaloh. I'm Senior Cryptographer at Microsoft 
Research. My 1987 doctoral dissertation at Yale University was 
entitled ``Verifiable Secret Ballot Elections'', so I've been 
working on election technologies for an embarrassingly long 
time. I also had the privilege and pleasure of serving 
alongside Neal Kelley on the National Academies' recent report 
on securing the vote, and appreciate that experience as well.
    There are thousands of election jurisdictions in the U.S., 
over 8,000 by most counts, and most are very small, with very 
limited resources. Threats come from nation-state sponsored 
adversaries, in many cases. This is an asymmetric battle. And 
while we have certainly a responsibility to harden our election 
infrastructure to the extent that we can, we should recognize 
that we cannot realistically make our election infrastructure 
impervious to attack. While we cannot guarantee that attacks 
can be prevented, we can guarantee that they're detectable. And 
the National Academies' report recommends pursuing two 
technologies that enable auditing that enables us to detect any 
attacks on our infrastructure. One is called risk-limiting 
auditing, the other is end-to-end verifiability.
    Risk-limiting audits are an enhanced form of traditional 
audits, managed by, and overseen by election officials, ideally 
together with, in cooperation with, members of the public. They 
use advanced statistical methods to make the auditing process 
more effective and more efficient, and they have been piloted 
in many jurisdictions--probably about a dozen jurisdictions 
around the U.S. in recent years. End-to-end verifiability is 
something entirely different. It's a public means of auditing. 
It's a method that allows any individual, after an election 
closes, at any time to conduct an audit. There's no need to 
wait for election officials, for Judges to issue court orders. 
Candidates, members of the news media, interest groups, and 
even individual voters can check for themselves that the votes 
have been counted correctly. Any and all tampering can be 
detected. Not just external tampering, but even insider 
tampering, due to faulty equipment, or improper actions by 
election personnel.
    End-to-end verifiability effectively answers the question, 
how can I trust the results of an election when I don't trust 
the people or equipment on which the election has been run? 
This is not a new technology. It has actually been around for 
decades. Its seeds go back to the 1980s, but it has evolved 
during that time, and improved, and become more efficient, and 
more practical, and more friendly, and is ready for wide-scale 
deployment at a time when I believe we most need it.
    Just over a year ago, Microsoft announced its Defending 
Democracy program, and as part of that, just last month 
Microsoft announced its ElectionGuard system. Microsoft is 
working with partners, including Columbia University, and a 
Portland company called Galois to build a free, open-source, 
software toolkit that enables both end-to-end verifiability and 
risk-limiting audits. This is not intended to replace existing 
systems for counting votes. It goes alongside. It makes it 
possible to have an auxiliary verifiable count that is 
verifiable by anybody at all. We are working with many vendors 
to promote the adoption of this technology, and seeking 
jurisdictions for initial pilots. The technical details will be 
released shortly, and the toolkit that enables this will be 
available later this summer.
    There are, however, regulatory challenges to making this 
happen, and the NIST and EAC guidelines that are in existence 
today are somewhat old and dated. They don't recognize new 
technologies, they're not very flexible, so we very strongly 
support and encourage the adoption of the new VVSG 2.0 
Guidelines that are in draft form, and hope they will be 
adopted very soon.
    There are numerous other challenges facing our election 
infrastructure: Technical, financial, educational, and others. 
Congress, in collaboration with States, can help to provide 
consistent funding sources, and address many of the challenges 
we face. Thank you very much, and I look forward to your 
questions.
    [The prepared statement of Dr. Benaloh follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Sherrill. Well, thank you. Before we proceed, I 
would like to bring the Committee's attention to statements we 
have received from the Brennan Center for Justice, the Center 
for American Progress, and Verified Voting. We've also received 
letters to the Committee from the National Election Defense 
Coalition, and Common Cause. These documents highlight 
priorities that Members of this Committee should consider as we 
look to assist States in their election security efforts. 
Without objection, I will enter these documents into the 
record.
    At this point we will begin our first round of questions, 
and I'll recognize myself 5 minutes.
    So first I'd like to start, if I could, with Mr. Kelley. In 
2018, my home State of New Jersey received a HAVA Election 
Security grant of nearly $9.8 million. So with this money, I'm 
happy to report we plan to purchase a number of voting systems 
that use a voter-verified paper trail audit, I'm sorry to 
report that New Jersey does not have that at this time, and to 
conduct a number of pilot programs with new systems. So what 
advice would you have for a State that decides to scale up 
their post-election audit pilots to a Statewide application?
    Mr. Kelley. Well, thank you, Madam Chair, for the question. 
I would have to go back to the discussion on risk-limiting 
audits, and, using that as really the benchmark for 
auditability post-election. In California we use two auditing 
functions right now. One is the 1-percent audit, which audits 1 
percent of the precincts, the ballots that are cast within 
California, and then the second is the option of conducting a 
risk-limiting audit. Opening that up in a Statewide function, 
like we are in California, I think is the proper way to go, 
because it does give you that extra look and comfort at 
auditing functions post-election, when, even if you're manually 
counting the ballots, this gives you that extra added security 
and assurance that those audit--that the ballots are counted 
correctly.
    So when you're looking at ramping up an auditing function, 
I think risk limiting audits is certainly the way to go. And 
there are so many States, and counties, and jurisdictions right 
now that don't utilize any auditing function, let alone a risk-
limiting audit.
    Chairwoman Sherrill. Thank you very much. And, Dr. Sweeney, 
with the money we received, we're also making plans to allocate 
funds to implement any necessary changes to the Statewide voter 
registration systems. I know NIST and the National Academies 
have a lot of recommendations for how to do this. And, given 
your experience examining vulnerabilities in a broad swath of 
voter registration systems, what do you think are some of the 
most important first steps that New Jersey can pursue with 
these funds?
    Dr. Sweeney. Well, there's two sides. A lot of--my 
colleagues on the panel have really focused a lot on 
traditional--cybersecurity kinds of threats. Break-ins, ways 
that the data could be tampered with, changing the flow of the 
data. The example that I gave is not a break-in, it's the 
opposite. It's the--a fundamental problem we have in the United 
States about identifying citizens, or identifying Americans, 
or--and it's on--and how do we go about doing that when so much 
of the data on Americans is so publicly available?
    And the study also gives us a hint at what was the best 
answer. Texas was the most difficult of the States, and it's 
because it used driver's license numbers, but it also used the 
number that was printed on the surface of the driver's license 
itself. It wasn't enough for us to stop the attack, but it 
limited--it raised the cost, because the only place you could 
get scans of actual driver's license to get those numbers was 
on the dark web. They weren't--that--those extra numbers 
weren't available elsewhere. So that gives us a sense of a way 
forward. Intrusion--and also intrusion detection would be 
helpful.
    I would just say one more thing to New Jersey, and that is 
the idea of independent assessments are really important. If--
we went through this with healthcare. If you build a system, 
and you say, this is what my security people say is good, and 
you test it, you're testing what you built it for. What we do 
is--and the reason you do independent assessment is the things 
you never thought of. It's a surface area you can't possibly 
think of. And the second part of that is whether or not New 
Jersey then--if a vulnerability is found, is--how robust is the 
response by New Jersey? We learned in the healthcare industry 
that if the hospitals just try to pretend it didn't happen to 
reassure everyone, that that's not nearly as good as a hospital 
who says, I had this vulnerability, we fixed it up, now we're 
ready to go. That kind of robust response is much more 
trustworthy. So I would recommend that approach.
    Chairwoman Sherrill. Thank you very much. And then, Dr. 
Romine, I have some straightforward questions for the record 
for you. Does NIST currently have the legal authority to 
develop technical guidelines for electronic poll books?
    Dr. Romine. Thank you for the question. Under the Help 
America Vote Act, the work that we do with the EAC is 
constrained to voting systems, which are defined more narrowly. 
However, we do have a broad mandate for cybersecurity for a 
broader number of systems, and in the COMPETES Act (America 
Creating Opportunities to Meaningfully Promote Excellence in 
Technology, Education, and Science) we have more authorities 
there for cybersecurity in those systems.
    Chairwoman Sherrill. Thank you. And what about for voter 
registration databases and local election websites?
    Dr. Romine. That would be the same answer. Not under HAVA, 
but under other authorities that we have, we could do work 
there.
    Chairwoman Sherrill. And same answer for election night 
reporting systems and ballot reconciliation methods?
    Dr. Romine. That's correct.
    Chairwoman Sherrill. All right. Well, thank you very much. 
Thank you all. Now I'd like to, sorry, turn it over to Ranking 
Member Norman for 5 minutes.
    Mr. Norman. Thank you, Chairwoman Sherrill. Secretary 
Ziriax, the substitute amendment to H.R. 2722 appears to 
contain several provisions that pertain to the administration 
of elections, as opposed to election security. To me, it 
appears that these election administration provisions are a 
Federal overreach that really encroach upon the function of 
State and local election administrators and their job. What are 
your thoughts about the bill? And, as an example, it looks like 
the bill requires paper ballots to be printed on recycled paper 
produced in the United States. And is that your read of the 
bill, and what would a mandate like that mean for Oklahoma?
    Mr. Ziriax. Well, in general let me say that when I was 
working with one of my home State Senators, and I apologize for 
mentioning a Member from the other body, but Mr. Lankford, when 
he was working on some election security, I told him many of 
the same things I'm about to tell you, that I do believe that 
it's important to remember the differences between different 
States. The recycled paper, for example, I personally--I--it is 
in the bill, I did read it there. I'm not exactly sure what the 
security purpose of that is. I know that with our current 
voting system, it cannot use recycled paper because of the 
sensitivity of the scanners, and what--if we were required to 
use recycled paper, it would actually run the risk of causing 
false readings.
    Mr. Norman. Well, in your opinion, do you think the 
election administration provisions of the bill reach too far 
into the administration of elections, which really is 
inherently a function of each State?
    Mr. Ziriax. I--in general, I think broad guidelines are 
better, and leaving specific decisions are better in the hands 
of the State.
    Mr. Norman. OK. Mr. Kelley, you briefly discussed VVSG 2.0, 
and how it is structurally distinct from previous iterations of 
the VVSGs. Specifically, you indicated that the new structures 
aimed at providing high-level principles and guidelines on 
functions that are incorporated into devices that make up a 
voting system. From the perspective of State and local election 
officials, do you think the high-level approach taken by the 
VVSG 2.0 provides a more workable and implementable set of 
guidelines when compared to the previous iterations?
    Mr. Kelley. Yes, sir, thank you for the question. Actually, 
from the standpoint of security, reliability, usability, and 
accessibility, I definitely believe that. The principles and 
guidelines are high-level. They are certainly a good road map 
for heading down that path, but they're not in the weeds. 
They're not the test assertions, they're not the requirements. 
So, as it stands, those principles and guidelines in VVSG 2.0 I 
think are light years ahead, sir, of where we were.
    Mr. Norman. OK. And, Secretary Ziriax, based on your 
experience, do you believe that a high-level approach is more 
workable and implementable, and is this the right approach?
    Mr. Ziriax. That--in my opinion, yes. I'm very supportive 
of the VVSG 2.0 guidelines that are out there. Although I'm not 
speaking for the National Association of State Election 
Directors, NASED, I am a member, and I know that they have 
expressed concerns about a second part of that, where I know 
the EAC is seeking to vote on the actual testing standards. 
And, you know, my concern there is that, with the--with what 
we've seen in the past, with the lack of a quorum at the EAC, 
you run the risk then of getting stuck, as we currently are, 
with out-of-date standards.
    Mr. Norman. Thank you. And, Dr. Romine, in layman's terms, 
can you describe what the election profile to the cybersecurity 
framework is, how it functions, and how it stands to help State 
and local election officials fortify their election systems?
    Dr. Romine. Yes, sir. The cybersecurity framework that was 
spearheaded by NIST, and is now being adopted around the world, 
is a high-level document that is applicable and scalable to a 
wide variety of different sectors of the economy, for example. 
In order to be maximally useful to a specific sector, and in 
particular the critical infrastructure sectors that include the 
election infrastructure, certain tailoring needs to be done to 
the cybersecurity framework to make it maximally effective, and 
that's what we're actually working on right now. So it's 
essentially making sure that we make decisions that are 
predicated on the needs of a particular sector.
    Mr. Norman. Great. Thank you so much. You all have been 
very responsive, and thank you for your questions. I yield 
back.
    Chairwoman Stevens. Thank you, Mr. Norman. The Chair will 
now recognize herself for 5 minutes of questions. And, 
certainly, we--we're capturing the nuance here, and how 
important the R&D is, and the trustworthiness, and the honesty, 
and the integrity of our election systems. I represent a 
suburban district in southeastern Michigan, and after the 2016 
election, Michigan replaced its aging voting machines in 
basically every county in the State, spending $40 million in 
State and Federal money to do so, and it's one of at least four 
States, along with Florida, Illinois, and Wisconsin, that use 
cellular modems to transmit unofficial election results. And 
Michigan officials have said that the State's election machines 
are not connected to the Internet, eliminating a major hacking 
risk. Our Secretary of State, Jocelyn Benson, has implemented a 
Security of Elections Commission, a first of its kind 
commission. That's coming into formation this year. She's a 
newly won Secretary of State whose come in and put in that 
commission.
    So Michigan voters are using paper ballots that run through 
an optical scan voting system, and, as we've noted, this week 
the House is considering H.R. 2722, Securing America's Federal 
Elections Act, which would require paper ballots and manual 
counting by hand or optical scanning systems, which is sort of 
a nice springboard to what we're doing here today, which is 
digging into the technology, talking about the R&D, relying on 
your expertise is a really robust panel. So--and there's 
obviously some, you know, ongoing debate about the use of 
modems and Internet connectivity in elements of the election 
system.
    NIST has named this as one of its ``open areas'' still 
being considered in its ongoing efforts to update its Voluntary 
Voting System Guidelines. And so, Dr. Romine, can you just tell 
us where NIST is headed with this? Will NIST give us an 
affirmative finding about whether voting systems should avoid 
wireless and cellular modems, and minimize Internet 
connectivity?
    Dr. Romine. Thank you, Madam Chairwoman. First I'd like to 
mention that the VVSG--the Guidelines that I've described are 
not solely NIST guidelines, but we're in partnership with the 
EAC, and with the TGDC, which is the advisory committee, so 
there's a number of people involved in the guideline 
development. But certainly in the Principles document in VVSG 
2.0 we talk about some of the concerns regarding Internet 
connectivity, for example, actually, in VVSG 1.1 we talk about 
those concerns. We've had guidelines in the past, you talked 
about the paper ballots, about auditability. In the Guidelines 
that we put out, we're not specific on the way that you can 
obtain auditability. We just try to ensure that auditability is 
available.
    With regard to cellular modems, or any specific technology, 
we don't get into that level of detail, but we do talk a lot 
about the importance of Internet connectivity for voting 
systems as being a challenge to be managed.
    Chairwoman Stevens. Dr. Benaloh, would you say that--the 
general opinion of the computer science community, as to 
whether the risks of Internet connectivity and wireless access 
can be adequately mitigated?
    Dr. Benaloh. I think the consensus is that--not at this 
time. There has been a good deal of exploration of use of 
Internet technologies associated with voting equipment, and 
there have been some studies looking at possibilities of how 
this might be done, and I believe the consensus is it would be 
premature to apply any of those technologies today.
    Chairwoman Stevens. Yes. And, Dr. Romine, you know, each 
fiscal year, NIST receives, you know, about the $1 to $2 
million in appropriations transferred from the EAC budget to 
conduct its voting research, if I have that right, and testing, 
work required, you know, under HAVA, and these annual funds 
have been declined, even as needs have grown. How many NIST 
staff work on the NIST voting system project?
    Dr. Romine. We have five Federal employees in my 
laboratory. Four of those are part time, one is full time, and 
then we have approximately four contractors working with them. 
That's the extent of our capacity currently to address these 
issues.
    Chairwoman Stevens. And, under those circumstances, how do 
you prioritize your voting technology efforts, given limited 
resources and constrained staffing?
    Dr. Romine. Well, I'd like to point out that the activities 
that we have in cybersecurity are considerably larger than this 
one effort, and many of the activities--the research activities 
that we engage in are applicable in some ways to voting 
systems, and in particular to the more traditional systems, 
like the voter registration systems, which are much more 
similar to mainstream IT systems. So we do leverage a lot, and 
I'd just like to say we're very proud of what we do with the 
resources that we have.
    Chairwoman Stevens. We're proud of you, too. And we're also 
proud of your fabulous description of NIST in your opening 
testimony. We must have faith in our government, we must have 
courage, we must stick to our principles for the people, by the 
people. I don't even say bipartisan. I talk about the things 
that bring us together as a body. And, with that, I'm going to 
yield back, and I'm going to call on my fabulous colleague, Dr. 
Jim Baird, for his 5 minutes of questioning.
    Mr. Baird. Thank you, Madam Chairwoman. Was that part of my 
time you were using? Dr. Romine, when you look at your 
knowledge, and your experience, and the number of times you've 
been here, maybe I should just allow you to decide what 
question you would like to answer. But I'm not going to do 
that. Here's a question. You know, in past testimony you 
mentioned the importance of collaboration with stakeholders in 
the realm of elections, and to be successful in creating 
voluntary standards. How often does NIST meet with election 
officials, with industry, outside technical experts, and 
advocacy groups, and what's been produced as a result of these 
meetings, in your opinion?
    Dr. Romine. Thank you for a question that allows me to brag 
about NIST a little more. I appreciate that very much. The 
subcommittee meetings I talked about, and the various task 
groups have meetings, virtual meetings, biweekly, in some cases 
weekly. The level of engagement is high, the amount of 
participation is high. The work that we're doing on the 
development of the Guidelines, and in the cybersecurity profile 
that I talked about, the cybersecurity framework profile, is a 
testament to the productivity of those activities. We work 
collaboratively with the Department of Homeland Security, and 
obviously with the EAC, in tackling some of these challenging 
issues with regard to security of many kinds, but security of 
our election systems in particular.
    On the industry front, we have strong collaborations. One 
of the secrets of NIST is, because we're non-regulatory, I like 
to say aggressively non-regulatory, we have a very strong 
working relationship with industry in many, many different 
sectors of the economy, and certainly we have strong 
relationships with the election vendors as well.
    Mr. Baird. Thank you. Dr. Ziriax, in your written testimony 
you described how efficient Oklahoma's election system is, and 
you state that the efficiency of Oklahoma's voting system is by 
design. How can we, at the Federal level of government, ensure 
that you get what you need to bolster the security of 
Oklahoma's election system without reducing the efficiency that 
your system has designed to achieve?
    Mr. Ziriax. I'm very proud of our system, as I mentioned 
earlier. It's paper-based, it is auditable, it is verifiable. 
We use optical scanners. We have since the early 1990s. That's 
when we first developed our Statewide uniform system. In my 
opinion, the best thing that Congress can do is to help ensure 
that we have the resources from, you know, various Federal 
agencies for help. One of the things that I'm very proud of is 
the working relationship that we have with local, Federal, and 
State officials, Department of Homeland Security--both State 
and Federal--FBI, our State Cyber Command. They, and others, 
are all part of an election working group that we have, and I 
think making sure that those various entities and agencies have 
the resources to work with their local and State election 
officials is very important.
    Mr. Baird. Thank you, and I have one more question for you. 
In your closing remarks, you said that the Federal policymakers 
should keep in mind that each State is different, and that 
imposing one-size-fits-all would be disruptive, expensive, and 
could create an adversarial relationship between State and 
local officials at a time when cooperation and partnership is 
very much needed. So how can we best help States improve the 
security of their election systems without encroaching on their 
Constitutional prerogatives, and at the same time ask any other 
things that you might consider important?
    Mr. Ziriax. Well, thank you for the question. You know, 
Oklahoma is different from other States. My State has a little 
over two million registered voters. I believe Mr. Kelley's 
county has about two million registered voters. I have counties 
in my State with fewer than 1,500 registered voters that are 
staffed by one county election board secretary and one staff 
person. And I think, you know, you have to keep in mind that, 
as you're looking at election legislation, the broader that you 
make any requirements, the more that you leave to local and 
State election officials to decide how to implement those, the 
better we can make it work for our States.
    I know that--I believe in Oklahoma we know more how to run 
elections in our State than, you know, someone from Washington, 
D.C., or maybe a college professor from another State, for 
example.
    Mr. Baird. Thank you, and I'm out of time, so I'm sorry I 
don't have questions for the other three of you, but thank you 
for being here.
    Chairwoman Stevens. Thank you, and the Chair now recognizes 
Mr. Tonko for 5 minutes of questioning.
    Mr. Tonko. Thank you, Madam Chairwoman, and thank you for 
holding this hearing, and thank you to our witnesses for 
joining us. Election security goes to the very heart of 
America's ideal of government, of the people, by the people, 
and for the people. We need look no further for evidence of 
this fact than the widespread, well-documented, and ongoing 
attacks of America's adversaries on our election systems. Our 
enemies recognize the power of our elections, and we must do 
the same.
    Today is Primary Day in the State of New York, and I am 
reassured that New York State has been taking election security 
seriously. I'm deeply concerned about the U.S. intelligence 
reports that 21 State election systems were targeted by Russian 
hackers during the 2016 election cycle. I agree with Special 
Counsel Mueller that all Americans should be concerned about 
the multiple systematic efforts to interfere in our election. 
This must be a wakeup call for all of us.
    Assuring the principle of one person, one vote requires 
balancing security and accessibility. In developing election 
technology, it is crucial that the technology be both secure 
and accessible for blind Americans, for people with other 
disabilities that can make it harder to vote. In election 
infrastructure, there may be places where security and 
accessibility seem to compete with one another.
    So, Mr. Kelley, is this the case? Are there places where 
the needs of blind voters, or voters with disabilities, are at 
odds with some of the efforts that have been undertaken to 
modernize election infrastructure?
    Mr. Kelley. Thank you, sir, for the question, and I think 
at times in the past that was the case. I think with 
technology, and where we are today, we do have the capability 
to produce paper ballots that can be used by voters with 
disabilities, and can be verified by voters with disabilities. 
And I would say the one area where they probably still 
intersect which is a little bit difficult is the remote 
transmission of ballots to individuals who are voters with 
disabilities. That's an area of concern that I think we need to 
keep an eye on, and security's very important in that regard. 
But I agree with you, sir, we can't lose sight of making sure 
that it's accessible at the same time.
    Mr. Tonko. So that technology gap that you just identified, 
is that resolvable, or----
    Mr. Kelley. I believe it is. I think we're at a point now 
where we can transmit the ballot directly to that voter, it can 
be verified, and marked, and printed out, and then mailed back, 
so there's no transmission of that ballot over the Internet, or 
over any network. So I do think it's solvable, yes, sir.
    Mr. Tonko. Thank you. And, Dr. Benaloh, did I say that 
correctly?
    Dr. Benaloh. It's Benaloh.
    Mr. Tonko. Benaloh, thank you. Based on Microsoft's work 
with election officials, what do you believe is the current 
cybersecurity posture and readiness of the average State 
election office, and is there even an average, or any--or are 
things all over the place?
    Dr. Benaloh. I think it would be hard to define an average 
of any kind. States are--and local jurisdictions are certainly 
working to try to improve things, but there is certainly a lot 
more that can be done, and we are hoping that, with consistent 
funding, new technologies, new--a new regulatory environment 
we'll be able to enact better systems, with better 
technologies, that can better protect the American voter.
    Mr. Tonko. And, Mr. Ziriax, what are the election security 
concerns that keep you up at night going into 2020?
    Mr. Ziriax. When I'm--there are really three potential 
threats that we face. One is misinformation. That has happened. 
I think it continues to happen. Obviously cyber intrusions. And 
I haven't heard anyone yet today mention physical security. You 
know, you could have physical security threats at polling 
places, or at election offices, but all three of those things 
are things that we should be concerned about, and, in my 
opinion, should work together--State and Federal officials 
finding common ground about how to move forward.
    Mr. Tonko. Thank you. And, Mr. Kelley, what about you?
    Mr. Kelley. I would just add to that, I definitely agree 
with what he's saying. Cyber, physical, but I would also add 
social. One of the things that keeps me up at night is how well 
trained are my election staff to make sure they're not clicking 
on links they shouldn't be clicking on? And----
    Mr. Tonko. OK.
    Mr. Kelley [continuing]. That's really in the weeds, I 
know.
    Mr. Tonko. Thank you. And, Mr. Kelley, help us understand 
how the paper trail works, and why it is important. When you 
talk about establishing a paper trail in all voting 
jurisdictions, what does that paper trail look like, and why 
does it need to be readable by humans?
    Mr. Kelley. Yes, sir. So I'll just give you a quick 
example. In California, we're required to have a paper trail in 
our electronic voting booths, and that paper trail prints out, 
the voter can look at that, and see what their selections were 
before casting their ballot. They don't take that with them, 
but it's included as part of the official record. The reason 
that's very important is because that is the official record. 
When you go back in a recount or an audit, you're looking at 
that paper record. You're not looking at the cast vote record, 
or the electronic portion of that ballot cast, so it has to be 
human readable so anybody looking at that can determine what 
are the true results here?
    Mr. Tonko. Thank you. Thank you very much. And, with that, 
I yield back, Madam Chair.
    Chairwoman Stevens. Thank you. And now the Chair would like 
to recognize Mr. Balderson for 5 minutes of questioning.
    Mr. Balderson. Thank you, Madam Chair. Good afternoon, 
everyone, thank you all for being here. Dr. Romine, my home 
State of Ohio is requiring all 88 counties to request a risk 
assessment from the Department of Homeland Security by next 
month. Can you speak how the suggestions NIST lays out in the 
Voluntary Voting System Guidelines can mitigate common mistakes 
found in DHS' assessments?
    Dr. Romine. I'm not sure that I would do exactly that. What 
I can say is the Guidelines that we promote through the EAC are 
intended to guide election officials to understand what the 
priorities are. The DHS program of assessment is an independent 
activity that I think is valuable to many localities in trying 
to determine whether they have adequately protected and thought 
of all of those particular issues.
    Mr. Balderson. OK. Thank you. My next question is for Dr. 
Benaloh. Dr. Benaloh, does an end-to-end verifiable system, 
like has been suggested by some, replace current technologies, 
or can it be used alongside them to ensure integrity in our 
election system?
    Dr. Benaloh. It can absolutely be used alongside. End to 
end verifiability offers an independent pathway by which voters 
can check for themselves that the election results are correct. 
It doesn't need to replace current systems at all. It can be 
entirely separate and parallel.
    Mr. Balderson. Thank you very much for your answer. Madam 
Chair, I yield back my remaining time.
    Chairwoman Stevens. Thank you to the gentleman from Ohio. 
And at this time the Chair would like to recognize Mr. Beyer 
for 5 minutes of questioning.
    Mr. Beyer. Thank you, Madam Chair, very much. And thank you 
very much for holding this long overdue hearing. Last Congress, 
I repeatedly asked our former Chair to hold hearings on 
election security after all of the reports about Russian 
interference, and now, certainly, our fears have since been 
confirmed. They've been verified, and I'm really concerned that 
the Trump Administration and the Senate Majority Leader refuse 
to take action.
    You know May 2017, President Trump announced the bipartisan 
Presidential Advisory Commission on Election Integrity, and 
appointed Kris Kobach as his Chair, despite what we now know 
about his concerns about his connection to white supremacy. And 
the formal charge of the commission was to investigate voter 
fraud. This is the step that Mr. Trump took after making the 
unsubstantiated--claim that three to five million people voted 
fraudulently in the 2016 election, and it appears the primary 
purpose of this commission was just to try to support that 
contention that he had somehow won the popular vote. In one of 
its only actions, the commission asked States to send in all 
their voter registration lists, including personal information 
like Social Security Numbers. In return, the commission mostly 
received just lawsuits, and then Trump decided to disband it.
    Mr. Kelley, as an election administrator, and a general 
expert with a lot of experience, how frequently do we see 
actual voting fraud, where individuals actually cast fraudulent 
votes?
    Mr. Kelley. Well, thank you, sir. I can speak to my 
jurisdiction only, and in Orange County there have been very 
few prosecutions for voter fraud in general. I will tell you 
the majority of those have been under voter registration, so 
individuals who are out registering individuals to vote, they 
may change information on the voter registration cards. We have 
not seen any instance of in-person voter fraud, where someone 
would show up in a polling place and present themselves as 
somebody other than who they say they are. It's mainly been on 
the voter registration side. In the last 15 years I would say 
there's about five to six instances that have been prosecuted.
    Mr. Beyer. Yes. In 40 years of doing politics in Virginia, 
I can remember exactly one instance that at least made it to 
the newspaper, and that was a former State Senator who had 
moved between his last election, voted one place, and then 
forgot, and voted the other place. He pled guilty, and was--can 
any of our panelists explain to use concisely the difference 
between voter fraud and election fraud? Is there--then let's 
move on. How about Dr. Benaloh? Given what we learned today 
about the information about the security and vulnerabilities in 
data, how much risk would there have been if the States had 
complied with the commission's request, and sent in all that 
data, including Social Security Numbers?
    Dr. Benaloh. It's very hard to say. Much of the data, I 
believe, that was requested was public, but certainly there 
were non-public data that were requested. The more hands that 
touch sensitive data, the more exposure there is, and 
transporting is always a somewhat risky endeavor, but it can be 
done well. It should be done well.
    Mr. Beyer. Mr. Kelley and Mr. Ziriax, you're both on the 
front lines. Do you feel you've received enough resources to be 
fully prepared for the 2020 election?
    Mr. Kelley. No, sir. I think we've made tremendous strides 
in the right direction, but I think funding is always an issue. 
I will say that I am grateful for the funding that we have 
received, because we've been able to start securing new systems 
in California, and that will be a leap forward for 2020. But I 
would never sit here and tell you, sir, that we're 100 percent.
    Mr. Beyer. And Mr. Ziriax?
    Mr. Ziriax. Thank you for the question. In the election 
business, we never have enough resources, no matter which 
particular issue you're talking about, I think. But in general 
I'm very grateful for the Federal funds we've received. We--
just as we were with our initial HAVA funds, have been actually 
a little slow to spend the security funds that were granted 
last year. We've actually begun by spending our State match 
first, but--and while we do have a list of items we provided 
the Election Assistance Commission, we're actually reviewing 
those with our State Cyber Command, because there may be some 
additional changes that would be more cost-effective, given the 
limited dollars. But I would repeat what I said in my opening 
statement, sustained funding is better, and the fewer the 
mandates, the more likely you are to get State participation in 
the grant process.
    Mr. Beyer. Ok, great. Well, thank you very much, and thanks 
for being here this afternoon. Madam Chair, I yield back.
    Chairwoman Stevens. Thank you to the gentleman from 
Virginia. At this time the Chair would like to recognize Mr. 
Gonzalez for 5 minutes of questioning.
    Mr. Gonzalez. Thank you, Madam Chair, and thank you, 
everybody, for being here today on this incredibly important 
topic. To Mr. Ziriax and Mr. Kelley, you both have unbelievably 
important and critical jobs in securing our democracy, and I 
thank you for your service to your States, and by default to 
our country. We in Ohio have an outstanding Secretary of State, 
Frank LaRose, and I share Mr. Ziriax's opinion that I have no 
interest in dictating to him how to do his job. I trust him, I 
voted for him, as did many Ohioans, and I think it's our 
responsibility, at the Federal level, to empower you to do your 
job as effectively as possible. And, specifically, one area 
where I think we can do a better job at the Federal level is 
helping on a cybersecurity standpoint.
    Dr. Benaloh, I want to start with a question for you. One 
thing we hear on the Financial Services Committee, on that 
Committee, and across industry, is if you don't believe you've 
had a cyber attack, it's because you're just not aware of it. 
Would you share that opinion?
    Dr. Benaloh. I think that's a reasonable adage. I'm sure 
there are exceptions to that, but not knowing--not having seen 
an attack does not mean that it, in fact, did not happen. 
That's certainly true.
    Mr. Gonzalez. Absolutely. And then I guess my follow up, 
then, for Mr. Ziriax is, with that in mind, how can we better 
equip you, how can we better prepare you for the coming 
election, and going forward, from a cybersecurity standpoint?
    Mr. Ziriax. Thank you for the question. In my opinion, 
continuing the Federal partnership that we have locally is 
something that is going to be very helpful. I know that our 
local FBI field office, local Department of Homeland Security 
officials have been very helpful, whether it's sharing 
intelligence, whether it's providing physical security 
assessments, and I think making sure that those functions are 
funded, and perhaps staffing is expanded. There are only two 
U.S. Department of Homeland Security officials, I believe, in 
the entire State of Oklahoma, and one of them is attached to 
our State Fusion Center.
    But, you know, for me personally, I think making sure that 
funds are available, and not just funding, but the expertise 
and resources are available to election officials to help us 
secure our own systems.
    Mr. Gonzalez. Thank you. And, Mr. Kelley, same question.
    Mr. Kelley. Yes, sir. Similar answer, but I would tell you 
that in California we have 58 counties. Most of those counties 
have not taken full advantage of all of the services that DHS 
has to offer. I've done that in Orange County, but I think 
additional resources for training and pushing that--those 
resources out is very important, and the backlog, because it's 
taken a little bit of time.
    Mr. Gonzalez. Got it. And then switching to VVSG generally, 
and then 2.0, Dr. Romine, it strikes me that one of the hardest 
parts of this is we are playing an asymmetric dynamic game, 
essentially, right? You're only as good as kind of the last set 
of guidelines that you've articulated, and the hackers are 
always kind of one step ahead. And so, with that in mind, I 
guess how should we think about updating your mandates, from a 
VVSG standpoint, to make sure that we are ahead of the game, or 
at least not, you know, in this world where we're doing it 
every couple years? It seems like we'd want to be continuously 
updating this information.
    Dr. Romine. Thank you for the question. I think you've just 
articulated one of the reasons why the high-level principles 
approach to VVSG 2.0 was the way that we felt most comfortable, 
because at the high-level principles, they're not necessarily 
affected by changes in technology more than specific guidelines 
would do, and it gives you the opportunity to frame how you can 
secure the systems at a higher level.
    Mr. Gonzalez. Great. Dr. Benaloh, same question.
    Dr. Benaloh. Yes. I think the high-level principles and 
guidelines are very valuable, and they afford the opportunity, 
if it is taken, to formally adopt just the high-level 
principles, which are far more enduring, and allow 
administrative revision of the detailed requirements of VVSG to 
be made and adjusted, as necessary, over time to accommodate 
changing circumstances.
    Mr. Gonzalez. Fantastic. Thank you, and I yield back.
    Chairwoman Sherrill. Thank you. Ms. Wexton for 5 minutes.
    Ms. Wexton. Thank you, Madam Chair, and thank you to all 
the witnesses for coming to testify today. I also want to thank 
the Chairwomen for holding this hearing. This is a topic that's 
critical to both our national security and the integrity of our 
democracy, so I'm very delighted that we're having this 
hearing.
    Now, my home State of Virginia was one of the States that 
was targeted by Russian hackers in the 2016 election, and at 
the time we were using direct recording devices, or paper-free 
voting machines, although paper ballots were available in many 
polling places. And my State has now transitioned back to using 
paper ballots, and they expedited that transition as a result 
of the hacking attempt, but it seems like NIST has been 
sounding the alarm about insecure voting machines for a long 
time.
    In the 2007 discussion draft paper of--to the EAC, a 
subcommittee of the Technical Guidelines Development Committee 
wrote, NIST does not know how to write testable requirements to 
make direct recording devices secure, and this recommendation 
is that the DRE, in practical terms, cannot be made secure. Is 
that familiar to you, Dr. Romine?
    Dr. Romine. It is.
    Ms. Wexton. OK. And in 2011, the NIST working group on 
auditability concluded that voting systems that do not provide 
a voter-verified paper ballot will be vulnerable to 
undetectable hacking, and cannot be audited effectively for 
errors in the vote count. Is that also familiar to you?
    Dr. Romine. It is.
    Ms. Wexton. OK. So--but it doesn't seem clear--seem to be 
clear that election officials at the State and local levels are 
getting that warning, NIST's warning, and the alarm bells that 
you guys are sounding about the inherent insecurity about 
paperless DRE (direct recording electronic) systems. Even the 
former Chair of the EAC, Tom Hicks, testified to the House 
Homeland Security Committee earlier this year that a 
compromised DRE could be effectively audited to discover a 
manipulation. Were you aware of that testimony?
    Dr. Romine. I believe I was on that same panel.
    Ms. Wexton. OK. Can you explain that discrepancy, or did 
you agree with that statement by the--by Mr. Hicks?
    Dr. Romine. So I don't remember the context in which he 
made that statement. I think possibly what he was alluding to 
was a collection of recommendations for auditability that might 
include risk-limiting audits. So there are certainly 
opportunities for advanced statistical analysis to be able to 
reveal the potential presence of anomalies in voting, but I 
don't remember exactly whether he was endorsing fully paperless 
ballots or not.
    Ms. Wexton. So going forward, how can we ensure that NIST's 
research and conclusions regarding the security and 
auditability of DREs are given due attention and shared 
effectively with election administrators to inform policy?
    Dr. Romine. We have strong relationships with the National 
Association of State Election Directors, NASED, and other 
venues for State officials, and we talk regularly with them. 
Many of the stakeholders participate in the working groups, the 
cybersecurity working groups, a working group that I alluded to 
earlier, with 175 members. So we're getting the word out. 
There's some awareness building. The principle guideline, from 
our perspective, is the necessity of an audit mechanism. Our 
Guidelines don't specify how that audit mechanism is to be 
done, but the importance of auditability is essential, and our 
guidelines reflect that.
    Ms. Wexton. Very good. Thank you. I will yield back with 
that.
    Chairwoman Sherrill. Thank you. Dr. Marshall? He's gone? 
OK. And so we are now down to Mr. Waltz for 5 minutes.
    Mr. Waltz. Thank you, Madam Chairwoman, and I want to thank 
everyone for holding this important hearing. I have some 
concern on the timing of it. I think this hearing is absolutely 
necessary, and would have hoped we could work toward some 
bipartisan solutions before the majority put the bill H.R. 2722 
forward this week, that is looking to put $1.3 billion at this 
issue.
    Here nor there, I am working with Representative Stephanie 
Murphy and putting together an alerts framework. We all know I 
represent Florida, and we all know that two of Florida's 
counties were breached as a result of a Russian spear phishing 
campaign targeted at county election officials. None of the 
congressional delegation, nor the State officials, were 
notified by the FBI or DHS as a result of that intrusion in 
2016. The bill that we are working would seek to correct that 
problem. Not only should officials be notified, but Floridians, 
and the voters, should be notified, in the guise of maintaining 
confidence in our electoral system.
    So part of the issue was that the Russians targeted 
employees of a Florida-based manufacturer of voter registration 
software, VR Systems. VR Systems has confirmed to the media 
that they were the company that was penetrated. They have 
responded to a letter from Senator Wyden that they did not 
click on an attachment in the e-mail, however, we do know that 
VR systems used remote access software on election management 
systems it sold to the counties leading up to that 2016 
election. We don't know if the systems were hacked as a result 
of the remote access software, and DHS is conducting forensic 
analysis, I promise you I'm getting to my questions.
    Look, at the end of the day, the company responded that 
they had been following the NIST cybersecurity framework that 
we've talked about prior to 2016, and they continue to do so 
today, so this gets to my question, Dr. Romine. Under HAVA, 
NIST is directed to develop the VVSG, all right, we know that. 
The law defines voting systems for the purposes of mandating 
NIST to create standards for testing and certifying voting 
systems. Not included in the definition of voting systems, 
which I know we've gotten to somewhat today, but I want to 
really spend time on this point, not including the definition 
of voting systems are voter registration panels and voter 
registration databases. And, because of this, there have been 
questions whether this vendor in particular, but I think it's a 
broader question, whether this vendor, VR Systems, implemented 
NIST framework, because, again, there's issues now with the 
definition.
    So although NIST guidelines are voluntary, and you're not a 
regulatory agency, which I think is correct, regardless of 
whether the standards meet the definition of voting systems 
under law. So question one, how would authorizing voter 
registration portals and databases under the Help America Vote 
Act, under HAVA, improve NIST's ability to provide innovative 
standards with respect to registration technologies?
    Dr. Romine. Thank you, Mr. Congressman. The guidelines that 
we currently provide under HAVA, the scope of those guidelines 
is controlled largely by the EAC, who makes the determination 
of what is in scope, or it's their interpretation of HAVA. The 
role that we play in cybersecurity broadly allows us the 
opportunity to provide things like the cybersecurity framework 
and other guidance on more traditional IT type systems, such as 
those that generally are used for voter registration databases, 
and e-poll books, and so on. So we already have guidelines in 
place that might be applicable. The change there would be that 
those guidelines would be incorporated into the EAC database, 
for example, for VVSG guidelines, and that would be perceived 
as more directly relevant to election officials.
    Mr. Waltz. I am out of time, but could you submit for the 
record how doing so, and how changing those guidelines, would 
incentivize companies and vendors, for example VR Systems, and 
other registration software companies to follow NIST 
guidelines, and implement the framework?
    Dr. Romine. I'll be happy to respond.
    Mr. Waltz. Thank you. I yield my time.
    Chairwoman Sherrill. Thank you. And next the Chair 
recognizes Ms. Horn for 5 minutes.
    Ms. Horn. Thank you, Madam Chair, and thank you for 
allowing me to join this Subcommittee on such an important 
issue today. I--we have covered a lot of ground today, and in--
this is such a critical topic. I want to tackle a couple of 
questions for I think most of the panel, just in a slightly 
different direction. It seems to me--I've heard both Dr. Romine 
and Mr. Ziriax say very clearly and explicitly that we have to 
work to balance being--the accessibility and convenience, and 
making sure that people can show up and cast a ballot, and not 
making it so hard to cast a ballot that we disincentivize 
participation in the system, with a reliable and secure system. 
I absolutely agree, and this is a challenge to balance.
    And, Dr. Sweeney, in your presentation, in your testimony, 
we're looking at two sides of this coin. We're looking at the 
voting system, and the ability to verify votes, and the 
security, but also the database, and so we've got two different 
pieces to this, as I see it. So I want to start with the 
verify--the piece of--the verification, and how we can put 
parameters around that to continue to ensure the confidence and 
the auditability of our voting systems.
    I noted, Mr. Ziriax, in your testimony, in your 
presentation, that Oklahoma, and I think Chairwoman Stevens 
mentioned this as well, has three, as I see them, fundamental 
baseline principles that help the ability to verify and audit 
votes, paper ballots, a Statewide system that is uniform, and 
owned by the State, which helps allay differences between the 
different counties, and the fact that the systems in Oklahoma 
aren't connected to an Internet source, which is another 
challenge. So my question--and we've talked about how we set 
these standards, the VVSG 2.0, VVSG, that--it seems that we 
have States that aren't even getting up to the baseline. So I--
Mr. Kelley and Mr. Ziriax, I'd like to hear your opinions about 
the need to set baseline standards that all States have to 
comply with, of course assuming we're going to help provide the 
funding at the Federal level to help with that.
    Mr. Ziriax. Thank you, Ms. Horn, and I think there's, you 
know, there's a fine line between, say providing the 
guidelines, and allowing the States to determine how best to do 
that. And some things--I mean, just to give an example, and, 
again, these are similar things that I've discussed with--about 
other election bills, but the bill that's been discussed 
earlier today, the SAFE Act (Securing America's Federal 
Elections), includes a mandate that new voting systems have to 
accommodate ranked choice voting, for example, and that's in an 
election security bill.
    Me personally, you know, I view that as a decision that our 
State should make, whether we want to move toward that. But if 
Congress is going to provide money, and wants to say, if you 
want our grants, then you need to at least demonstrate that 
you're going to attempt to follow the voluntary guidelines, 
that's certainly Congress' prerogative.
    Mr. Kelley. And I would concur with that. I would just also 
add that--for the--for an example in California, there is an 
enhanced requirement in California for certification, so it 
just does not rely on the Federal standards, it goes above and 
beyond that. And I think I would agree also that the States 
should, in many cases, make those decisions, personal opinion.
    Ms. Horn. Thank you. Now turning to the next piece of this 
is--that we--we're going to have to face, Dr. Sweeney, you 
referenced all of the ways that individuals could perhaps get 
into different systems without necessarily verifying their 
identity. So, knowing that there are a range of challenges that 
we may not even know, and, Dr. Romine, you've spoken to some of 
these as well, do you see any other pathways, or potential 
solutions, for example biometrics, or anything like that, that 
would help, moving forward, to protect these systems?
    Dr. Sweeney. I think the most immediate answer is probably 
just to follow the best practices of things like using driver's 
license, but it is a--with additional information off the 
driver's license, and using a modern capture device. But it is 
a bit of a moving target, because that's not wholly 
satisfactory. That--it requires a bigger question about how we 
authenticate. The problem, though, is it's--the questions that 
you pose generally around what NIST has proposed and so forth, 
and it was brought up that a lot of what they talked about 
happened years before they started saying it. I'm like that, 
but now years before.
    And, you know, so there's a--so we have a cycle mismatch as 
well. So I think, if we're going to do the cycle, if we could 
move faster to, like, implement something like, OK, what's the 
best practice right now, to nail that down, like the driver's 
license, then we have a better shot at not being victimized by 
it, and having to come back in a few years, and say, well, how 
many States have improved what they asked for?
    Ms. Horn. Thank you very much. So we both have to address 
the challenges now, and look forward--thank you all for your 
testimony. I yield back, Madam Chair.
    Chairwoman Sherrill. Thank you. And now I would like to 
recognize Mr. Sherman for 5 minutes.
    Mr. Sherman. I want to agree with Mr. Ziriax that the 
Federal Government has no business pushing rank choice voting, 
or rank order voting. Those who propose it most are those who 
most want to undermine the two party system. There are 
arguments for and against having two major parties in this 
country, but that's not something that the Federal Government 
should be pushing on the States.
    My first question is for whichever panelist answers it 
first. What number of States currently require the use of paper 
ballots and an auditable paper ballot trail? Do we know how 
many States do that? I thought there'd be a jump in to be the 
first to answer.
    Mr. Ziriax. Oklahoma does.
    Mr. Sherman. And I guess the other States don't matter. Do 
we have--if we don't have that, then I'll ask whichever witness 
raises their hand first to agree to answer that for the record.
    Dr. Sweeney. I----
    Mr. Sherman. Do we have any hard working----
    Dr. Sherrill. I do believe----
    Mr. Sherman [continuing]. Witnesses?
    Dr. Sherrill [continuing]. Five do not. I know----
    Mr. Sherman. Five do not?
    Dr. Sherrill [continuing]. I know New Jersey does not.
    Mr. Sherman. Got you. Hopefully it's only five that do not. 
For States which conduct testing and certification of voting 
machines, how do the State standards compare with the standards 
promulgated by the U.S. Election Assistance Commission? Yes?
    Mr. Ziriax. I can--as Oklahoma's chief election official, I 
can only talk about our State. I know with our current system, 
which was implemented in 2012, although our State law does not 
require that we follow those guidelines, the guidelines that I 
set at the time, when we were reviewing that system, and 
requiring testing for it, we did require testing to ensure 
compliance with many of the VVSG 1.0 requirements.
    Mr. Sherman. Anyone else have a comment?
    Mr. Kelley. Yes, sir, just very quickly, in California it's 
very similar, VVSG 1.1, but I will say one of the key 
differences is that California requires volume testing of all 
the systems, where those are not in the current standards.
    Mr. Sherman. Should they be added to the national 
standards?
    Mr. Kelley. Sir, if I could defer that question?
    Mr. Sherman. OK. Increasingly a number of States, including 
my own, has moved to vote by mail. My State has authorized 
ballot harvesting. I'm told that the proponents of it would 
prefer I call it by a different name. What technologies do we 
need to prevent either false registrations, followed by false 
vote by mail voting, where--knowing that people who--people are 
not looking to cheat by adding one vote. I know every vote 
matters, and we--but those who want to steal votes want to do 
it by the--at least by the hundreds. What do we do, first, to 
prevent false registrations, followed by false voting, all done 
by mail? Is there any system that is designed to combat that?
    Dr. Sweeney. I wouldn't say that it's--I'm not answering 
exactly on----
    Mr. Sherman. Right.
    Dr. Sweeney [continuing]. Point to you. It's not so much 
that it's designed to combat it, it's just that it's totally a 
different vector than has been really talked about in computer 
security, because I'd use the change of address, but it--what 
we also talk about, it could be absentee ballots. I--
disenfranchise a person who then would go to the voting place, 
who would get a provisional ballot, and that ballot won't 
count, or in the case of a State where it's vote by mail.
    Mr. Sherman. If I can squeeze in one question? In my State 
they compare the signature on the outside of the envelope to 
the signature on the voter registration card.
    Dr. Sweeney. Right, but the clarification here is not----
    Mr. Sherman. I've got to squeeze in one more question, I'm 
sorry. Mr. Kelley, or anyone else, is that process useful at 
all? Do the people who do that have any expertise in comparing 
signatures, and do signatures change over time? My voter 
registration form was filled out long, long ago.
    Mr. Kelley. Yes, sir. I'm glad you asked the question, 
because absolutely they do, and you see that, especially with 
historical signatures that we have on file. 20 years, 30 years, 
you see a big difference. I will add that----
    Mr. Sherman. So what percentage of the ballots in our State 
is--are put aside or provisional because there's some question 
as to whether the signature is legitimate?
    Mr. Kelley. One plus million ballots cast in Orange County 
by mail, we had about 5,000 that were set aside specifically 
for signature issues. Now, I will----
    Mr. Sherman. How many of those were ultimately counted, how 
many of those were not ultimately----
    Mr. Kelley. The majority were ultimately counted. 
California changed its law last year to allow us to reach out 
to the voter to attempt to cure that.
    Mr. Sherman. And so you had to reach out in 5,000 
circumstances and say, hey, is this really your signature.
    Mr. Kelley. Yes, sir, we did.
    Mr. Sherman. Wow. I believe my time has expired.
    Chairwoman Sherrill. Well, thank you, and now the Chair 
recognizes Mr. Casten for 5 minutes.
    Mr. Casten. Thank you, Chairwoman Sherrill. Thank you to 
the panel. The--one of my favorite things about this Committee 
is we consistently get such fascinating nerds before us, and 
you guys are all awesome. Just--learned so much today on a 
really important topic. And fortunately, the nerds are not just 
limited to the panel. The--I want to thank--there's a few of us 
up here, but I want to thank our young visitor, Bianca Lewis, 
for being here. Really, really appreciate what you've done.
    And I want to talk a little bit about, if I understand what 
you did at DEFCON--my understanding, if I've got it right, is 
the method that the participants in your exhibit used to hack 
into the Secretary of State website was called a sequel 
injection? And--I got it right? The--this is--the single 
strategy that these kids at DEFCON demonstrated is also what is 
described in Robert Mueller's report that the Russians did.
    Page 50, Volume 1, of the report says the following, GRU 
officers--Bianca, GRU is the Russian agents--targeted State and 
local databases of registered voters using a technique known as 
sequel injection, by which malicious code was sent to the State 
or local website in order to run commands, such as exfiltrating 
the database contents. In one instance, the GRU compromised the 
computer network of the Illinois State Board of Elections, my 
State, by exploiting a vulnerability in the State Board of 
Elections website. The GRU then gained access to a database 
containing information on millions of registered Illinois 
voters, and extracted data relating to thousands of U.S. voters 
before the malicious activity was identified. This is real-time 
stuff. But what it seems to be saying is that the Russians used 
a real sequel injection to crack open the real State website, 
same strategy that Bianca demonstrated on the models at DEFCON, 
and then the Russian worm kept going all the way through to the 
voter registration database.
    Now, Illinois has done great work in responding to this. I 
hope we have done enough. We seemed to be OK in the last 
election, but this is really scary stuff. And--so what I'm--
first I'd like to ask unanimous consent to add pages 50 and 51 
of Volume 1 of the Mueller Report, which describes this 
episode, to the hearing record.
    Chairwoman Sherrill. Without objection.
    Mr. Casten. And then, notwithstanding how I started this, I 
want to start with Dr. Benaloh. Could you explain to us, so 
that us smaller-brained people up here can understand, how does 
a sequel injection work, exactly?
    Dr. Benaloh. You're getting a little bit away from my 
expertise, but the basic idea is that the--in a web query of 
some--of any sort, additional information can be added to 
what's--what would otherwise be interpreted as an innocuous web 
request that is not of the form that's expected by the web 
server that is handling this request. And if there aren't 
adequate measures in place, that web server may interpret that 
additional information as code to be executed, and to 
potentially do harm, or provide services that are not intended 
by the----
    Mr. Casten. Essentially modifying an existing sequel SQL 
database?
    Dr. Benaloh. Yes. It----
    Mr. Casten. Dr. Sweeney, I see you nodding your head. Is 
there anything you want to add to that? Did I get it about 
right?
    Dr. Sweeney. No. I mean, that's about right. The idea is I 
just simply can add commands within a command so that it'll, in 
fact, do multiple things that never--you never intended me to 
do. You provided access, say, to list some voters, or to check 
one voter, and I just end up deleting 1,000, or downloading a 
million, or something like that.
    Mr. Casten. So, for all of you, is this an--is this a 
technique we should expect to be seeing again, and be watching 
for? I see a lot of head nodding will be entered into the 
record. Dr. Romine, does NIST's work in VVSG address the need 
to firewall State websites, particularly under the voter 
registration databases, that we can protect against this in 
some fashion?
    Dr. Romine. I actually don't know the answer to that, but 
I'm happy to respond to that. I suspect that it does, but I 
can't confirm that. I'll have to go back and check.
    Mr. Casten. That would be very helpful to find out.
    Dr. Romine. Happy to do that.
    Mr. Casten. Thank you all, and I yield back the balance of 
my time.
    Chairwoman Sherrill. Thank you, and now the Chair 
recognizes Mr. McAdams for 5 minutes.
    Mr. McAdams. Thank you, Madam Chair. I think this timely 
hearing is important for our Congress to review the current 
efforts, and the plan--and to plan our future work to develop--
or to protect our elections from malign actors. So this work 
will require, I think, strong collaboration from local, State, 
and Federal partners to ensure the integrity of our elections, 
and that all Americans can participate in our democracy. In my 
previous role, I was one of those local officials. And, while I 
wasn't a county clerk, per se, was familiar with the incredible 
work that they do to protect the integrity and security of our 
elections, and sometimes under very difficult circumstances, 
but I applaud, and am grateful for those elected officials 
across the country who work with the greatest effort to protect 
our elections.
    And I'm also proud that my home State of Utah has been 
leading the way in upgrading our election infrastructure and 
policies, and also cybersecurity practices. Our county clerks, 
in 2018, led the substantial upgrade--a substantial effort to 
upgrade voting machines, and also to take other security 
measures in advance of the 2018 midterms, while also promoting 
more options for Utahans to vote, including adopting things 
like widespread vote by mail, and same day registration. Utah 
is one of 17 States that offer same day registration, and I 
believe policymakers should support any strategy that makes it 
easier for Americans to add their voice to our democracy, so 
long as our election practices maintain the high standards of 
security and integrity.
    So I'd like to discuss the implications for same day 
automatic, or any mode of registration on our election system 
security. So to anyone on the panel who'd like to respond, how 
can same day registration help to mitigate the effects of a 
cyber attack on voter registration data close to the election? 
Are there any concerns we should be worried about with that?
    Dr. Sweeney. I would say the same day registration could 
definitely be a way of resolving the threat that I described. 
And the reason being that if somebody--if a malicious actor had 
come in and intended to disenfranchise a large percentage of 
those voters, but those voters still show up at their polling 
place, and could register right there, the attack would be 
thwarted.
    Mr. McAdams. Yes.
    Mr. Ziriax. And if I may add, in Oklahoma, my State, we do 
not have same day voter registration, we have a 24-day 
deadline. I don't anticipate anywhere in the near future that 
that is going to happen, but we extensively use the provisional 
ballot process in Oklahoma, so then, in the event you did have 
a situation where perhaps large numbers of voters were not 
appearing on registries, we would have a backup means, and then 
be able to go back and confirm later that those people actually 
were eligible to vote.
    Mr. Kelley. Similar comments in--from California, and I 
would say that the same day registration growth in California 
is growing, but it is small. It's still a small number compared 
to the overall database. So I think we need to be careful and 
just say that's the solution. We should be looking at the 
database as a whole, and finding ways to detect anomalies in 
that database itself.
    Mr. McAdams. So I guess my second question relates to 
automatic voter registration, and how can that operate in a 
secure election system. And ultimately is--are election 
security and automatic voter registration, are they in 
competition, or they--are they in symbiosis?
    Mr. Kelley. I don't think they're in competition. It's 
certainly a different dynamic when you go into DMV, for 
instance, in California, and it's automated registration that 
you could opt out of, where same day registration is you're 
affirmatively going to a polling place, or vote center, to 
register to vote. So I don't think they're in competition with 
each other.
    Dr. Sweeney. From a security standpoint, it definitely 
would change--if I wanted to disenfranchise voters, because--in 
those States, where provisional ballots don't fully count, then 
I would just want to attack the database. So it would remove 
the--automated registration might remove on one layer--but 
remember the attack that I talked about was changing an 
existing----
    Mr. McAdams. Um-hum.
    Dr. Sweeney [continuing]. Registration, so it would still 
allow that.
    Mr. Ziriax. And if I may, I want to briefly add that, you 
know, some of the concerns Dr. Sweeney and others have 
expressed about the vulnerabilities for online voter 
registration, if you're talking about whether you have the 
ability to confirm a person's identity, or whether someone 
could use a stolen identity to register to vote falsely, that 
could happen with paper ballots now.
    Dr. Sweeney. Let me make just one quick correction, since I 
was called. I----
    Mr. McAdams. Yes.
    Dr. Sweeney [continuing]. These are not voter registration 
systems. I'm not talking about voter--it just happens that 
sometimes changing the voter record is on the same system as 
the voter registration website, but sometimes it's on the DMV 
site. I'm only talking about registrations that already exist.
    Mr. McAdams. And these are policies that would protect our 
elections. So I see our time has expired, and, Madam Chair, I 
yield back.
    Chairwoman Sherrill. Well, thank you very much. And thank 
you so much to all of the panelists today. I think all of us 
think this is such a critical issue moving forward. Thank you 
to Bianca. You are not only a STEAM wizard, you are a trooper 
to sit through our hearing today, so I appreciate everyone here 
today. Thank you very much, and hopefully we will be talking 
again. Maybe we can get you in, Dr. Romine, for your 21st 
appearance. So thank you all very much. Thank you.
    [Whereupon, at 4:58 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
                   
Responses by Dr. Charles H. Romine

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Neal Kelley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Josh Benaloh

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record




               Documents submitted by Rep. Mikie Sherrill
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               


                 Document submitted by Rep. Sean Casten
                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 


                                 <all>
</pre></body></html>
